<html>
<title> - OVERSIGHT OF THE DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                     OVERSIGHT OF THE DEPARTMENT OF
                     HOUSING AND URBAN DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 27, 2018

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 115-106
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
 
 
 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-495 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9afdeaf5daf9efe9eef2fff6eab4f9f5f7b4">[email&#160;protected]</a>  
                           

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
STEVAN PEARCE, New Mexico            GREGORY W. MEEKS, New York
BILL POSEY, Florida                  MICHAEL E. CAPUANO, Massachusetts
BLAINE LUETKEMEYER, Missouri         WM. LACY CLAY, Missouri
BILL HUIZENGA, Michigan              STEPHEN F. LYNCH, Massachusetts
SEAN P. DUFFY, Wisconsin             DAVID SCOTT, Georgia
STEVE STIVERS, Ohio                  AL GREEN, Texas
RANDY HULTGREN, Illinois             EMANUEL CLEAVER, Missouri
DENNIS A. ROSS, Florida              GWEN MOORE, Wisconsin
ROBERT PITTENGER, North Carolina     KEITH ELLISON, Minnesota
ANN WAGNER, Missouri                 ED PERLMUTTER, Colorado
ANDY BARR, Kentucky                  JAMES A. HIMES, Connecticut
KEITH J. ROTHFUS, Pennsylvania       BILL FOSTER, Illinois
LUKE MESSER, Indiana                 DANIEL T. KILDEE, Michigan
SCOTT TIPTON, Colorado               JOHN K. DELANEY, Maryland
ROGER WILLIAMS, Texas                KYRSTEN SINEMA, Arizona
BRUCE POLIQUIN, Maine                JOYCE BEATTY, Ohio
MIA LOVE, Utah                       DENNY HECK, Washington
FRENCH HILL, Arkansas                JUAN VARGAS, California
TOM EMMER, Minnesota                 JOSH GOTTHEIMER, New Jersey
LEE M. ZELDIN, New York              VICENTE GONZALEZ, Texas
DAVID A. TROTT, Michigan             CHARLIE CRIST, Florida
BARRY LOUDERMILK, Georgia            RUBEN KIHUEN, Nevada
ALEXANDER X. MOONEY, West Virginia
THOMAS MacARTHUR, New Jersey
WARREN DAVIDSON, Ohio
TED BUDD, North Carolina
DAVID KUSTOFF, Tennessee
CLAUDIA TENNEY, New York
TREY HOLLINGSWORTH, Indiana

                     Shannon McGahn, Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    June 27, 2018................................................     1
Appendix:
    June 27, 2018................................................    59

                               WITNESSES
                        Wednesday, June 27, 2018

Carson, Hon. Ben, Secretary, U.S. Department of Housing and Urban 
  Development....................................................     5

                                APPENDIX

Prepared statements:
    Carson, Hon. Ben.............................................    60

              Additional Material Submitted for the Record

Crist, Hon. Charlie:
    Letter to the Honorable Ben Carson...........................    69
    Letter of petition, sent to Rep. Waters......................    71
Posey, Hon. Bill:
    Letter to the Honorable Ben Carson...........................    72
Carson, Hon. Ben:
    Written responses to questions for the record submitted by 
      Representatives Crist, Hill, Hultgren, Ross, Sherman, and 
      Waters.....................................................    82

 
                     OVERSIGHT OF THE DEPARTMENT OF                  HOUSING AND URBAN DEVELOPMENT

                              ----------                              


                        Wednesday, June 27, 2018

                     U.S. House of Representatives,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:04 a.m., in 
room 2128, Rayburn House Office Building, Hon. Jeb Hensarling 
[Chairman of the committee] presiding.
    Present: Representatives Hensarling, Royce, Lucas, Pearce, 
Posey, Luetkemeyer, Huizenga, Duffy, Stivers, Hultgren, 
Pittenger, Wagner, Barr, Rothfus, Tipton, Williams, Poliquin, 
Love, Hill, Emmer, Zeldin, Trott, Loudermilk, Mooney, 
MacArthur, Davidson, Budd, Kustoff, Tenney, Hollingsworth, 
Waters, Velazquez, Sherman, Meeks, Capuano, Clay, Lynch, Scott, 
Green, Cleaver, Ellison, Perlmutter, Himes, Foster, Kildee, 
Delaney, Sinema, Beatty, Heck, Vargas, Gottheimer, and Crist.
    Chairman Hensarling. The committee will come to order. 
Without objection, the Chair is authorized to declare recess of 
the committee at any time and all members will have 5 
legislative days within which to submit extraneous materials to 
the Chair for inclusion in the record.
    The hearing is entitled, ``Oversight of the Department of 
Housing and Urban Development.''
    I now recognize myself for 3-1/2 minutes to give an opening 
statement.
    As we all know, HUD was established over 50 years ago. When 
it was established, President Johnson said it was central to 
the war on poverty. But, unfortunately, 50 years later, not to 
mention $1.6 trillion later, the poverty level in our country 
has barely changed.
    There is no doubt that HUD programs help a number of our 
citizens and are a critical part of the Nation's social safety 
net. But, when I look at the data and when I look into the 
faces of our fellow citizens, who seem to be trapped in lives 
of dependency, it's hard not to conclude that HUD has failed 
far too many for far too long.
    It doesn't appear to be from lack of resources. Over the 
last 20 years, the HUD budget has doubled; whereas, the family 
budget, which pays for it, has increased less than double 
digits. In fact, HUD's budget has grown faster than almost 
every other Federal budget function, including Social Security, 
education, and national defense.
    HUD resources have not been the challenge; HUD focus and 
success has been. Again, when President Johnson helped launch 
HUD, he said its purpose was quote, ``not only to relieve the 
symptoms of poverty, but to cure it and, above all, prevent 
it.''
    Secretary Carson, I want to applaud you and this 
Administration, not only for your efforts to attempt to root 
out discrimination, to promote affordable housing, but very, 
very importantly to help able-bodied citizens achieve President 
Johnson's goal and achieve lives of dignity and self-respect 
that comes from self-sufficiency.
    We know that these fellow citizens are not liabilities. 
They are our Nation's assets. We want them to feel wanted and 
needed in society, and to realize their full potential of their 
God given talents. When it comes to home affordability, we know 
there is no better home affordability program than a growing 
economy with a good job.
    Fortunately, under the policies of this Administration and 
this Congress, 1 million new jobs have been created. 
Unemployment is near a 50-year low. We see rising incomes the 
best, healthiest in a decade. Bonuses, millions have gotten 
thousand dollar bonuses or better. Some may view that as 
crumbs, others believe it is a core of a home down payment.
    Now, Secretary Carson, I want to speak briefly on the tenor 
of political debate in our society today. I do not know how you 
will be treated in this hearing. I know on previous occasions, 
members of this committee believe that witnesses should quote, 
``be treated fairly,'' should quote, ``be shown courtesy,'' 
should quote, ``be allowed to answer questions,'' and quote, 
``be shown respect.''
    We will allow the public to determine whether members who 
have demanded that in the past live up to their words today. I 
think we all know that words matter. I know that Steve Scalise 
believes this; and, if you listened to him yesterday, you would 
know how passionately he does. I am not sure there is any 
member of the House who has greater credibility on the subject.
    For those who daily promote diversity, I would call upon 
them to respect diversity of opinion, which is the single most 
important form of diversity in a free and democratic society. I 
also lament, as I look back, that there was a time in America's 
history where you could be denied service in a restaurant based 
on the color of your skin. Now, apparently, it's the color of 
your voter registration card.
    To all my colleagues, particularly those who disagree with 
my political views, I don't own a restaurant. But, if I owned a 
restaurant in Dallas, I want you to know, you would be welcome 
there and I would be proud to be seen with you. If you come to 
Dallas, I would be glad to take you to one. You can pick it; 
Tex-Mex or barbeque, take your pick.
    As we eat, please know I would not yield you the moral high 
ground. I would not lessen my passion for individual liberty 
and economic opportunity. But, I would listen carefully to your 
views and I would seek common ground with you. Should my 
supporters be in that restaurant, the only thing I would call 
on them to do would be to show you respect and to surround you 
with Texas friendly hospitality.
    I yield back the balance of my time.
    I now recognize the gentlelady from California, Ms. Waters, 
the Ranking Member, for 3 minutes.
    Ms. Waters. Thank you very much, Mr. Chairman.
    Mr. Chairman, since Secretary Carson was last before this 
committee, he has taken actions and issued proposals that are 
deeply problematic and harmful for vulnerable families and 
hard-working Americans. He has released an outrageous plan that 
will triple rents of the lowest income households and put 1.7 
million Americans at risk of eviction and homelessness.
    He has also embraced steep budget cuts to important 
programs. The Trump Administration's latest budget request to 
Congress would cut HUD's budget by 24 percent compared to 
current levels and would eliminate the Community Development 
Block Grant (CDBG) and the HOME Investment Partnerships 
Program. I am also very concerned about the actions Secretary 
Carson has taken to undermine fair housing in this country.
    Secretary Carson has stopped the implementation of HUD's 
Affirmatively Furthering Fair Housing (AFFH) rule, which 
requires the Federal agencies and recipients of Federal housing 
funds take proactive steps to affirmatively further fair 
housing. According to news reports, he has brought a halt to 
fair housing investigations and enforcement actions. He has 
even proposed taking the phrase, ``inclusive and sustainable 
communities free from discrimination,'' out of HUD's mission 
statement.
    To address these harmful actions, I have introduced 
legislation to restore the Fair Housing protections that 
Secretary Carson and the Trump Administration have eliminated. 
H.R. 6220, the Restoring Fair Housing Protections Eliminated by 
HUD Act of 2018 responds directly to each action that Secretary 
Carson has taken to undermine Fair Housing. Congress should not 
stand by while the agency charged with ensuring Fair Housing 
turns its back on its mission, and takes actions that roll back 
critical protections that ensure that all Americans have fair 
access to housing.
    I thank the Secretary for coming today. I look forward to 
hearing his testimony on these important issues. As to the 
Chairman's comments about civility and about what he would do 
if he owned a restaurant.
    Let me just say that I think every reasonable person has 
concluded that the President of the United States of America 
has advocated violence. He has been divisive. He has been the 
one that has caused what we see happening today, where people 
are trying to push back on his policies and where people are 
trying to have peaceful protests instead of violence, but he 
continues to call names and he continues to challenge people in 
very violent ways.
    I will quote to you some of his said--sayings. In his 
campaign, I quote, he said, ``I would like to knock the crap 
out of them.'' Further, he said, ``You know what they used to 
do to guys like that when they were in a place like this? They 
would be carried out on a stretcher, folks.''
    In addition to that, he also talked about the fact that if 
someone was hurt while they were being assaulted--as he was 
encouraging them to do--he said this, ``If you see somebody 
getting ready to throw a tomato, knock the crap out of them,'' 
and, ``would you? Seriously.'' Trump said, ``OK, Just knock 
them the hell out--I promise, I will pay for the legal fees. I 
promise. I promise.''
    Mr. Chairman, if you want to talk about civility, you start 
with the President of the United States. You implore him not to 
continue to promote violence, not to continue to promote 
divisiveness. He would be a better example and people would 
follow a better example, rather than get trapped into what he 
is advocating which is pure violence. I yield back the balance 
of my time.
    Chairman Hensarling. Gentlelady yields back. The Chair now 
recognizes the gentleman from Wisconsin, Mr. Duffy, Chairman of 
the Housing and Insurance Subcommittee, for 1-1/2 minutes.
    Mr. Duffy. Thank you, Mr. Chairman. We don't take 
responsibility for our own actions. We should blame somebody 
else for our poor behavior and our incitement of violence.
    Mr. Secretary, welcome. I want to thank you for coming to 
Wisconsin and participating in our Homelessness and Hunger 
Summit. Coming to Wisconsin in January is not always the time 
that people choose to come and see us; but, to rural Wisconsin, 
we had 400 people that came to hear you speak. I am grateful 
for your participation.
    I want to take a moment and just talk about some of the 
things that we have been working on in the Housing and 
Insurance Subcommittee with your partnership, focusing on 
homelessness and low-income housing. We have done that over the 
last couple of months together. It is fascinating when we have 
common interests, the things that we can actually do together 
on a bipartisan level, which we have done.
    We have voted bills such as the Family Self-Sufficiency Act 
and the Housing Choice Voucher Mobility Demonstration Act with 
unanimous votes. Bipartisanship can actually happen when we 
work together and with your participation. We do great things 
in this committee when everyone does work together, including, 
again, working with HUD.
    Again, I am grateful for your participation. It is 
wonderful when our aim is working on programs that lift people 
up and out of poverty. We shouldn't measure success--and you 
always talk about this, Mr. Secretary, don't measure success by 
how much money we actually spend, but what impact our programs 
have on people's lives. What opportunity do we give them? How 
do we give them a hand-up into self-sufficiency?
    I am looking forward today to your testimony, but also 
hearing about your story and how you lifted yourself up, 
whether it was with support and opportunity that brought you to 
this committee today. My time is up and I yield back.
    Chairman Hensarling. The Chair now recognizes the gentleman 
from Michigan, Mr. Kildee, a member of the Housing and 
Insurance Subcommittee, for 1 minute.
    Mr. Kildee. Thank you, Mr. Chairman. Mr. Secretary, I 
recently started an initiative in Congress titled, ``The Future 
of America's Cities and Towns.'' You and I discussed some of 
this in your office a couple of months back. I want to just 
encourage you to engage on this subject.
    We have a whole subset of American cities that have 
continued to decline during periods of growth and in periods of 
recession. They seem to be consistently falling to the bottom. 
This is not an accident; it's the result of policy at every 
level of government.
    I would just implore you to join with us in calling 
attention to the needs of a whole set of American cities and 
towns that continue to struggle. We have tools available, but 
not robust enough tools.
    Before I yield, though, I feel obligated to comment on the 
comments of the Chair. I share his concern about the tone of 
public dialog. But, I will say this, I am very frustrated to 
see the ease with which some members of this body are willing 
to criticize some on the other side of the aisle but not their 
own.
    I have criticized my colleagues where I think they have 
gone the wrong path. But I fear that I see so many who are 
suddenly invertebrate when it comes time to criticize the chief 
architect of the de-evolution of our public dialog, and that is 
the President of the United States.
    Chairman Hensarling. Time of the gentleman has expired. The 
Chair apologizes to the gentleman from Missouri. I should have 
recognized him first. But the Chair now recognizes the 
gentleman from Missouri, Mr. Cleaver, the Ranking Member of the 
Housing and Insurance Subcommittee for 1 minute.
    Mr. Cleaver. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary. Yesterday, the Subcommittee on Housing and Insurance 
had a very interesting committee hearing. We dealt with the 
issue of lead paint. I know that there were some final rules, I 
think put in place last year in 2017.
    Having lived in public housing and knowing the dangers of 
lead paint and that it tastes sweet, which means it's a perfect 
invitation to kids, we in the committee on both sides of the 
aisle yesterday became very concerned. We had the I.G. here. 
The I.G. was very critical of HUD in some areas as it relates 
to the lead paint issue.
    I talked about yesterday, putting a 10-year plan together 
and declaring war on the end of lead-based paint in public 
housing. That was one of the things that he criticized HUD on, 
not having a goal in terms of dealing with this. I will 
probably continue it later in this meeting today.
    Thank you, Mr. Chairman. I will continue, however, if?
    Chairman Hensarling. Time of the gentleman has expired. 
Today, we welcome back to the committee, the Honorable Dr. Ben 
Carson, Secretary of the Department of Housing and Urban 
Development. Secretary Carson has appeared before our committee 
before, so we will forgo the usual introduction.
    Secretary Carson, again, welcome. You are now recognized 
for 5 minutes to give an oral presentation of your testimony.

                  STATEMENT OF HON. BEN CARSON

    Secretary Carson. Thank you, Mr. Chairman and Ranking 
Member Waters. Members of this committee, thank you for 
inviting me to testify this morning. HUD has made tremendous 
progress since I testified in October. I am so pleased to have 
this opportunity to update you on those developments and to 
discuss other innovative solutions to our Nation's housing and 
community development challenges.
    June is National Healthy Homes Month, an important 
recognition of the significance of the home to our overall 
health. Prior to becoming HUD's Secretary, I was a doctor. In 
the course of treating countless young children, I knew I could 
treat the patient's symptoms or I could treat the patient. The 
patient's home must be a part of a holistic approach to 
treating that patient because you can't be healthy if your home 
is sick.
    June is also National Homeownership Month. Central to HUD's 
efforts to support responsible homeownership are the programs 
at the Federal Housing Administration. FHA's mission is to 
support sustainable home ownership in good times and in bad. 
Maintaining the health of FHA's single-family insurance fund is 
critical if we are to continue to be an affordable source of 
credit for first-time, low- and moderate-income, and minority 
homebuyers. Managing taxpayer risk requires technology and FHA 
can no longer put off substantial investments in our systems, 
some of which are built on platforms over four decades old.
    This year marks the 50th anniversary of the passage of the 
Fair Housing Act. HUD has, is now, and will continue to 
rigorously protect people from discrimination, regardless of 
their color, race, national origin, religion, sex, disability, 
or family status. Each year, we receive approximately 8,000 
Fair Housing complaints, and, each year, HUD and our Fair 
Housing partners continue to enforce the letter and spirit of 
this landmark law.
    Earlier this month, I formally launched the first EnVision 
Center in Detroit and announced 16 additional demonstration 
sites across the Nation. EnVision centers offer HUD-assisted 
families access to a range of support services to move their 
lives on to a stronger financial footing and help them along 
the road to self-sufficiency.
    EnVision Centers fulfill one of the basic principles that 
guide this Administration: Leveraging limited public-sector 
resources with those in private, philanthropic, nonprofit, and 
faith-based organizations.
    One of the most consequential policy reforms for which we 
are seeking the committee's support is a proposal to reform the 
rental assistance programs administered by HUD. HUD currently 
serves 4.7 million low-income families, more than half of whom 
are seniors and persons living with disabilities.
    HUD's complex rent policies have remained largely unchanged 
since the early 1980's. In April, the Administration proposed a 
simplified structure that offers a more transparent and 
predictable rent calculation that is easier to understand for 
landlords and tenants alike.
    I would very much welcome having a long-overdue 
conversation with members of this committee about how we can 
provide meaningful, dignified assistance to those we serve.
    We are now in the midst of another hurricane season while 
we continue the long process of recovering from last year's 
devastating storms. Since Hurricanes Harvey, Irma, and Maria 
made landfall and wildfires impacted California, HUD has 
awarded more than $35 billion through the department's 
Community Development Block Grant Disaster Recovery Program. 
These grants will support recovery in hard-hit areas in nine 
States, Puerto Rico, and the U.S. Virgin Islands, addressing 
unmet housing, business, and infrastructure needs in the 
impacted areas.
    In addition, a substantial amount of these recovery dollars 
will be invested in making disaster-prone areas stronger, 
making it possible for them to weather future disasters.
    Taxpayers support HUD's mission, and they expect us to use 
their moneys wisely, maximizing the impact of every dollar and 
minimizing waste. Since becoming Secretary, I have been 
intensely mindful of our responsibility to fulfill our mission 
as responsible stewards of their hard-earned dollars.
    In March, I took a number of important steps to strengthen 
the financial integrity of the agency and correct lax internal 
processes and controls. Central to this effort is HUD's Chief 
Financial Officer, Irving Dennis, who joined the department in 
January after a distinguished career in the private sector. I 
have directed Irv to design and implement a transformation plan 
and lead an internal taskforce to combat waste, fraud, and 
abuse. We simply need to do better, and we will.
    In conclusion, Mr. Chairman, HUD is committed to safe, 
fair, and affordable housing for the American people. It also 
acts as a stepping stone to opportunity and self-sufficiency so 
that families can graduate from assisted housing to economic 
independence.
    I am eager to work with Congress and all the members of 
this committee in achieving these worthy goals and to better 
serve our fellow Americans.
    [The prepared statement of Secretary Carson can be found on 
page 60 of the appendix.]
    Chairman Hensarling. Thank you, Mr. Secretary. The Chair 
now yields to himself 5 minutes for questions.
    Mr. Secretary, you talked about using the taxpayer funds 
wisely. My guess is most taxpayers would be willing to spend 
more if they saw results.
    I am concerned when I hear, for example, what the Ranking 
Member, the gentleman from Missouri, alluded to in a 
subcommittee hearing yesterday--I think I have the numbers 
right--that the taxpayers spent about $1.5 billion over the 
last 10 years on mold and lead paint remediation, and we have 
absolutely no data to show that any of this is working. I 
continue to encourage you, Mr. Secretary, we need to have 
metrics of progress.
    Section 8 is the main housing program that you oversee. We 
know that there are a lot of elderly people with Section 8 
vouchers. We know there's a number of disabled, but there's 
also able-bodied people who need to have paths to independence. 
Again, I am curious--and I have been on this committee a long 
time, and I have yet to see HUD develop any metric of success. 
You grew up in poverty. You know it better than most, but yet 
you escaped that. We need to know what worked.
    What is HUD doing to change the metrics of that success 
from simply taxpayer money into lives changed? Can you tell 
this committee where you are on that?
    Secretary Carson. Yes, thank you for that question. 
Obviously, in medicine, we are very focused on metrics. The 
reason that life expectancy in this country has gone up so much 
is because we looked at data and looked at evidence and changed 
policies and medicine for that reason.
    The same thing is happening at HUD right now. We are 
looking at actual data. We are developing longitudinal 
dashboards so that we can follow a person over the course of 
time and determine how many more children are reading at grade 
level, how many more people are graduating from high school or 
getting their GEDs, how many more people are moving on to an 
advanced education.
    Chairman Hensarling. Mr. Secretary, what is the timetable 
here? When can this committee expect to see some results on the 
metrics you are creating?
    Secretary Carson. I would expect to be able to see 
something within a year or two, but it has to be done on a 
longitudinal basis.
    Chairman Hensarling. OK. I would encourage the department 
to move even more rapidly. Let me move rapidly myself.
    HUD recently issued an advance notice of proposed 
rulemaking dealing with its intent to reconsider the 2013 
Disparate Impact Rule. With regard to that, Treasury issued a 
report in October 2017 that reads in part, quote, ``treasury 
recommends that HUD reconsider its use of the Disparate Impact 
Rule. In particular, HUD should consider whether the Disparate 
Impact Rule as applied is consistent with McCarran-Ferguson and 
existing State law. HUD should also consider whether such a 
rule would have a disruptive effect on the availability of 
homeowners insurance and whether the rule is reconcilable with 
actuarially sound principles.''
    Mr. Secretary, are you familiar with this provision of the 
Treasury report?
    Secretary Carson. Yes.
    Chairman Hensarling. I guess I have two questions, then. 
Number one, given the legal parameters established by McCarran-
Ferguson, which I believe in as Chairman, what legal authority, 
if any, does HUD have to regulate the business of insurance?
    My second question would be, what State regulatory 
practices has HUD identified that fails to protect consumers 
from discrimination?
    Secretary Carson. Obviously, we are very concerned about 
discrimination of any type, whether it be in insurance, whether 
it be in assessing property values, no matter what it is.
    The responsibility that we have is the oversight of 
entities that do business with HUD. We are in a process of 
looking carefully at the matter that you just talked--
    Chairman Hensarling. But again, do you have legal 
authority, under McCarran-Ferguson, to regulate the business of 
insurance, which it appears you are attempting to do? Because I 
am having a hard time seeing it, Mr. Secretary.
    Secretary Carson. No, that is not our business.
    Chairman Hensarling. That is not your business?
    The second part of the question: Has HUD identified any 
States that they believe are inadequate in protecting their 
consumers from housing discrimination? If so, would you please 
name those States?
    Secretary Carson. I would not be able to tell you 
specifically States that are doing that.
    Chairman Hensarling. Does that mean, Mr. Secretary, that 
HUD has not identified them, or you simply don't have that 
information in front of you?
    Secretary Carson. I don't have such information.
    Chairman Hensarling. Does HUD have such information?
    Secretary Carson. I am not particularly convinced that that 
is where the energies of HUD should be directed.
    Chairman Hensarling. My time has expired.
    The Chair now recognizes the Ranking Member.
    Ms. Waters. Thank you very much.
    We continue to face substantial challenges when it comes to 
fair housing in America. Revealed from the Center for 
Investigative Reporting, recently found that in 61 metro areas, 
applicants of color were more likely to be denied a 
conventional mortgage, with black borrowers facing the toughest 
challenges.
    Let me just ask you a question. You said you are concerned 
about discrimination. Do you believe that housing 
discrimination continues to be a serious problem in this 
country?
    Secretary Carson. There is no question that there still is 
discrimination in our country.
    Ms. Waters. Do you believe it's a serious problem?
    Secretary Carson. Any time you see discrimination, it's a 
serious problem.
    Ms. Waters. You do believe it's a serious problem that 
discrimination does exist?
    Secretary Carson. I believe that we have a responsibility 
to identify and continue to attack discrimination where it 
occurs. The activity in that regard at HUD has not slowed down 
at all.
    Ms. Waters. I understand that. I am just trying to find out 
whether or not you believe there is serious discrimination in 
this country.
    Secretary Carson. I believe any discrimination is serious.
    Ms. Waters. Let me get to the proposal on your rent 
increases. You released a proposal to drastically raise rents 
and impose arbitrary work requirements on low-income families. 
Many of us have heard directly from our constituents who are 
residents of public and assisted housing about how harmful this 
proposal would be to them and their families.
    But in a recent interview, you appeared to take a step back 
from this proposal, claiming, and I quote, ``the reason we had 
to consider raising rents at all is because we are dealing with 
a $41 billion budget. Now that that budget has been changed, 
the necessity for doing that is not urgent,'' quote/unquote.
    Before we get into some of the details of your proposal, I 
want to start by asking you, do you stand by your so-called, 
quote, ``Making Affordable Housing Work Act'' that would triple 
rents on the lowest-income families? Are you here today to 
continue to urge Congress to pass this harmful proposal?
    Secretary Carson. First of all, recognize that when you 
talk about tripling rent, you are talking about the minimum 
rent of $50. That would potentially go up to $150.
    Ms. Waters. Yes, I am talking about tripling.
    Secretary Carson. Relatively few people who are HUD 
assisted actually pay that, so that has been blown way out of 
proportion.
    In terms of the budget, obviously, we have to be concerned 
about fiscal responsibility, as well as compassion. We have to 
do what we need to do in order to make the budget fit.
    What I was most concerned--
    Ms. Waters. Look, I want to thank you and I just have to 
reclaim some time.
    Your answer is that you had a budget problem, basically, 
and you thought one way to meet that was by tripling the rent, 
is that correct?
    Secretary Carson. No. What is correct is that I had to do 
everything I could to make sure that we didn't have to increase 
the rent on the disabled and--
    Ms. Waters. Reclaiming my time.
    Secretary Carson. Upon the elderly people.
    Ms. Waters. Reclaiming my time, Mr. Secretary.
    You did attempt to increase the rents and you moved back on 
it--to triple the rent.
    Now that we have that cleared up, I would also like to 
clarify your rationale for offering the proposal. You have 
claimed that this proposal was intended to increase self-
sufficiency. There is simply no evidence to support that claim. 
You have also claimed that it was only proposed to address 
shortages in HUD's budget, but you yourself have called for 
cutting the budget.
    What is the real reason for this proposal? You can see what 
I am saying. If you gave as the excuse for tripling the rents 
was because you have a budget problem, but yet you were 
initiating budget cuts. How do you justify that?
    Secretary Carson. That is not the only reason for 
increasing rents. If you will recall, Secretary Donovan 
advocated exactly the same thing--
    Ms. Waters. Reclaiming my time. I am not talking about 
Secretary Donovan.
    Secretary Carson. During the previous Administration.
    Ms. Waters. Reclaiming my time. I am not talking about 
Secretary Donovan, I am talking about you. I am talking about 
your attempts to triple the rents on the most vulnerable in our 
society.
    Stepping back--and the reason that you gave was that you 
had budget problems, yet you advocated cutting the budget. I 
want to know how you reconcile that.
    Secretary Carson. The reason that we advocated that, and 
the reason that the previous Administration advocated that, is 
that it would give people more skin in the game and encourage 
them to bring in more income into their household.
    Ms. Waters. You are no longer backing this proposal due to 
increased appropriations for HUD's budget from Congress, is 
that correct?
    Secretary Carson. This proposal is a starting point in the 
conversation. Congress--
    Ms. Waters. Are you continuing--
    Secretary Carson. I'll make the final decision about that.
    Ms. Waters. To back the proposal or not, Mr. Secretary?
    Secretary Carson. Excuse me?
    Ms. Waters. Are you continuing to back that proposal?
    Secretary Carson. Of course we continue to back our 
proposals.
    Ms. Waters. Thank you.
    And you continue to advocate the steep cuts in HUD's 
budget, is that right?
    Secretary Carson. I continue to advocate fiscal 
responsibility as well as compassion. I don't think the two 
things are mutually exclusive.
    Ms. Waters. Thank you. Your so-called Making Affordable 
Housing Work Act would triple rents on the lowest-income 
families. The typical household affected by the minimum rent 
increase from your proposal would be a single mother of two, 
earning a median income of $2,400 a year, or just $200 a month. 
After paying $150 for rent, she would be left with just $50 to 
stretch for the month for diapers, toiletries, bus fare, and 
other necessities.
    Do you honestly believe that your proposal would help a 
family like this? How can you expect a child to succeed in 
school or a working parent to maintain employment when they are 
struggling to afford basic necessities?
    Secretary Carson. Are you interested in an answer?
    Ms. Waters. Are you interested in giving one?
    Secretary Carson. I will give one if you would allow me to 
do so.
    Ms. Waters. I stopped, didn't I? That means that you have 
an opportunity to respond, if you will. If you are just buying 
for time, then I will yield back my time and you won't get a 
chance to answer.
    I yield back the balance of my time.
    Chairman Hensarling. Gentlelady yields back the balance of 
her time.
    The Chair now recognizes the gentleman from Wisconsin, Mr. 
Duffy, Chairman of the Housing and Insurance Subcommittee.
    Mr. Duffy. Thank you, Mr. Chairman.
    Mr. Secretary, I am not going to pepper you with questions 
and then when you try to answer, reclaim my time. You were just 
asked a number of questions by the Ranking Member. Would you 
like an opportunity to respond to the questions that you just 
received?
    Secretary Carson. That would be very useful.
    Mr. Duffy. Have at it.
    Secretary Carson. All right. In fact the reason that we 
have offered a rent reform proposal is because there are so 
many perverse things in the system that exist now that really 
hasn't been changed for many decades. We need to be able to 
respond to those because we want people to actually be able to 
move out of assisted housing, and to realize the potential that 
God gave to each individual.
    Mr. Duffy. You are saying you want people to actually be 
self-sufficient?
    Secretary Carson. Exactly.
    Mr. Duffy. Get out of the program?
    Secretary Carson. Exactly.
    Mr. Duffy. Not spend a lifetime in the program?
    Secretary Carson. That is exactly right.
    Mr. Duffy. Oh? Interesting.
    Secretary Carson. That is one of the reasons, for instance, 
in that proposal--which is something that many people don't 
want to talk about--we have increased the amount of time to 3 
years that you have to reaffirm your income, upon which the 
rent is based.
    That way, you are not discouraged from taking that raise. 
You are not discouraged from going out and getting a better 
job. You are not discouraged from getting married, bringing in 
another income into that family. Those are the kinds of things 
that are perverse incentives that have kept people mired in 
poverty. We want to change those things.
    Mr. Duffy. Now, Secretary Carson, by chance do you have any 
life experience that might lead you to the conclusion that it's 
helpful to move yourself out of assistance and into self-
sufficiency? Or, were you born and raised in the finest 
neighborhoods of your community?
    Secretary Carson. I have had much experience living in dire 
poverty.
    Mr. Duffy. In dire poverty?
    Secretary Carson. Actually being homeless and being at the 
mercy of relatives to take us in for 6 years, while my mother 
worked two to three jobs at a time. But my mother was a very 
wise person and she recognized what was necessary. She didn't 
listen to a lot of people who were bemoaning their 
circumstances. She always told us what we could do, rather than 
what we couldn't do.
    But what happens now is a lot of people have become 
victimized. They believe that someone else is in control of 
their destiny, that the American Dream is not for them. This is 
something that we want to change. I know that goes against the 
status quo. I know that many people believe that anything that 
you do that changes that dependent status is evil, and is mean, 
and that you are working against the people. But the fact of 
the matter is that is absolutely not the case.
    A lot of those people who say you hate poor people. Why are 
you doing this? What is it about your history that made you 
like that? Is it maybe the fact that I did grow up in those 
circumstances, and see the problems that were associated, and 
see what things got people out of those situations?
    Is it perhaps because I became a pediatric neurosurgeon, 
and spent countless hours trying to save young children's 
lives? Is it maybe the fact that I developed a program at 
Hopkins where brought in 700 to 800 students at a time to talk 
to them about how they can improve their lives? Is it about the 
fact that maybe my wife and I started the scholarship program, 
which is available in all 50 States now, that recognizes not 
only academic achievement, but humanitarian qualities, because 
we want to develop leaders of our country who are not only 
smart, but who care about other people?
    Maybe those are the things that make people think that I 
hate people.
    Mr. Duffy. By chance so you--well said, Dr. Carson. You 
come from the poorest of the poor. You have become a world-
renowned neurosurgeon, saving children's lives. Something must 
have gone right in your life to bring you from where you 
started to where you ended up.
    Maybe you could have taken the lessons of that success 
story, and now be in a great place to actually implement those 
lessons and help other young people become the next Ben Carson. 
Is that a fair enough assessment?
    Secretary Carson. That is a very fair assessment. I would 
hope at some point that many people who are oppositional would 
actually stop and spend time discussing with us what we are 
doing. I think they would recognize that it is not a useful 
thing to just harp on the talking points of those who oppose 
people--
    Mr. Duffy. Secretary Carson, I only have 20 seconds left. 
You talk about your mom a lot. I know you just lost her as 
well, and I am sorry for your loss. But if you were acting 
uncivil and you told your mother, but, mom, I am acting uncivil 
because someone else was uncivil to me. What would she say to 
you?
    Secretary Carson. She would say, your guidance should be 
what is right and not what other people do.
    Mr. Duffy. I yield back.
    Chairman Hensarling. Time of the gentleman has expired.
    The Chair now recognizes the gentleman from Missouri, Mr. 
Cleaver, Ranking Member of our Housing and Insurance 
Subcommittee.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I want to return to the whole issue of lead-based paint. 
Unless I misunderstood the committee yesterday, I think 
everyone was pretty much on the same page with our concern that 
the Government, before any of us were involved, did outlaw 
lead-based paints in 1978 I think, or thereabouts.
    I think we have made significant progress. But I think that 
the report shows that there are about 4 million children in the 
United States who are still living in and around lead-based 
paint. I believe, and I said this in the subcommittee hearing 
yesterday, that we can fix this problem.
    I think the I.G. has laid out some recommendations--or, 
well, he pointed out some flaws. But we can use those as 
recommendations to move forward. One of them he said we liked, 
adequate oversight of lead-based paint reporting and 
remediation.
    If we can start there, is there--there's a committee in 
place, I think they met last in 2018, in February dealing with 
this issue. Do you have any progress report on where they are? 
I am assuming--because it's at multi--
    Secretary Carson. Multi-agency.
    Mr. Cleaver. Multi-agency.
    Secretary Carson. Yes, there is a multi-agency taskforce. 
Thank you for that question.
    First of all, as far as the I.G.'s report is concerned, it 
encompassed a period of time from January 2014 until December 
2016, prior to this Administration. This--
    Mr. Cleaver. No, I--this problem goes--this has nothing to 
do with the Administration. It has something to do with kids.
    Secretary Carson. I understand.
    Mr. Cleaver. Yes.
    Secretary Carson. This is a very big priority of mine, 
particularly coming from my background in neuroscience, 
recognizing the profound effects that lead can have on the 
developing brain. That is why we have made it a priority since 
I have been here. As the I.G. did note that we have taken into 
consideration all those things and have made those appropriate 
changes.
    We are providing tremendous oversight now because there are 
requirements for all of the subsidized housing areas to report 
on a regular basis, what they have done in order to monitor for 
lead.
    If they discover anybody with elevated blood levels, they 
have an obligation to report that. They have to work through 
either a physician or through the health agency. We are 
following up on each one of those instances, and it is making a 
difference.
    Mr. Cleaver. Thank you. Mr. Duffy and I both agree, and 
every one of our panelists yesterday agreed--I raised the 
question, can we eliminate this problem? Everybody says, yes, I 
agree to it.
    I said, is it realistic for us to declare war and say, by 
the year whatever, we are going to eliminate lead-based paint 
as a problem in the United States of America? Now, not all of 
it's in public housing, so we are talking about people who are 
living in houses and--that are not public housing, and 
completely unaware of the dangers of lead-based paint. But I 
know the damage it can do to--I don't know as well as you. 
You--this is your area.
    But is it realistic? Can you accept the challenge of 
meeting with this multi-agency group and saying, look, we can 
solve this problem? Then, let's all get together, declare war. 
The taxpayers would love it if we could end a problem and not 
have to revisit it again.
    Secretary Carson. I agree with you very much. I would very 
much love to eliminate that problem. We are making very good 
progress. The latest CDC survey, in terms of blood levels for 
children, is down to 0.9 micrograms per deciliter, which is 
considerably below the target. We are making good progress. We 
are going to continue to work very hard on that.
    Mr. Cleaver. I think my time is running out. Thank you, Mr. 
Chairman.
    Chairman Hensarling. Gentleman yields back.
    The Chair now recognizes the gentleman from Missouri, Mr. 
Luetkemeyer, Chairman of our Financial Institutions 
Subcommittee.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary.
    Secretary Carson. Thank you.
    Mr. Luetkemeyer. During the past Administration, I 
expressed serious concern over the state of FHA. We saw years 
where FHA employed lax underwriting standards and cut guarantee 
fees, creating tremendous taxpayer exposure.
    Can you give us an update as to the current financial state 
of FHA, how the delinquencies are going? Are there aspects or 
trends to FHA's business that cause you concern?
    Secretary Carson. First of all, we are very grateful that 
we finally got an FHA commissioner. He has been in place for 
almost a month now. That makes a very big difference.
    FHA is the primary source of mortgages for low-income and 
moderate-income people, first time home buyers, minorities. It 
plays an extremely important function in our society. We have 
some awfully good people there which have kept moving the ball 
forward. We kept the MMIF above the statutory requirement of 2 
percent for the reserve capital fund, which would not have 
happened, of course, if we had yielded to the pressure to lower 
the premium.
    We are paying attention to all those things. We have made 
tremendous progress in terms of reverse mortgages, in terms of 
PACE loans and putting the taxpayer in the right position.
    Mr. Luetkemeyer. Reverse mortgages have been a sore spot 
for you, have they not?
    Secretary Carson. It has been. I--of course, when it was 
put in place, people meant well, allowing seniors to age in 
place. But the appropriate standards were not set in terms of 
the amount of money that could be withdrawn, et cetera, and 
looking after the surviving spouses. All of those things have 
been addressed, and we are continuing to make excellent 
progress in that area.
    Mr. Luetkemeyer. Thank you. I know, last week, the 
Administration sent out a general outline on GSE reform. Would 
you like to comment on that or just enlighten us a little bit 
as to HUD and FHA and your part in this and where you see this 
going? I realize it was just a general outline, but, if you can 
give us a little update on it, it would be great.
    Secretary Carson. In terms of the housing crisis, it's 
really the last piece that is left is really GSE reform. Ten 
years later, they are still in conservatorship.
    Mr. Luetkemeyer. Right.
    Secretary Carson. That, of course places taxpayers at 
additional risk. I love the fact that many people are now 
starting to talk about, how do we get them out? How do we put 
them on a playing field in the secondary market with, 
potentially, other private sector guarantors to create real 
competition and still have an appropriate guarantee so that we 
encourage capital in the market from foreign areas?
    All of that is an appropriate thing to do. But what we need 
to do is lessen the taxpayer exposure; increase private capital 
in the secondary market. I think that would help us out quite a 
bit.
    Mr. Luetkemeyer. You bring up a great point there, because 
I know that one of my colleagues has a great bill that we are 
trying to look at, going across the board with regards to the 
Government as a whole and seeing where reinsurance could come 
into play to protect the Government on the guarantee side so 
that there would not be a taxpayer exposure. Would you be 
supportive of something like that?
    Secretary Carson. Absolutely. I think those are the kinds 
of things that we need to be looking at, carefully exploring.
    The other thing we have to do, obviously, because this is 
such a big part of the American economy, is we have to make 
sure that we don't do things that cause a big shock to the 
system.
    Then the other point I would just take a moment to 
reinforce, as far as FHA is concerned: We are dealing with very 
archaic I.T. We are dealing with an almost $1.3 trillion 
portfolio. We cannot afford to put that money at risk by not 
tending to the I.T. platform.
    Mr. Luetkemeyer. I see my time is about done. I will yield 
back the balance of my time, Mr. Chairman.
    Chairman Hensarling. Gentleman yields back.
    Chair now recognizes the gentlelady from New York, Ms. 
Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Secretary Carson, the New York City Housing Authority needs 
an estimated $25 billion in capital repairs. Earlier this 
month, after years of investigation, NYCHA signed a consent 
decree with the U.S. Attorney's Office for the Southern 
District of New York and HUD, in part for its extensive lead 
and mold problems, as well as for its failing to provide 
sufficient heat to its residents during the winter months due 
to their ongoing maintenance challenges related to its boilers.
    In your expert medical opinion, do residents face a health 
risk for living in these buildings?
    Secretary Carson. Yes. I was extremely concerned when I 
learned about the challenges, not only with the lead, but with 
the mold; with the elevators, particularly with some of the 
elderly people there; with the heating and cooling systems. 
It's absolutely ridiculous.
    That is we entered into this with the EPA and with the 
Department of Justice, because, quite frankly, we were outraged 
that that would be going on--
    Ms. Velazquez. Thanks.
    Secretary Carson. It was done on the basis of false 
reporting.
    Ms. Velazquez. Thank you. Thank you, Dr. Carson.
    During your confirmation, you stated a renewed focus of 
lead-based paint hazard reduction. That is what you stated at 
your confirmation hearing. Since becoming Secretary, what has 
HUD done to address the issue in public housing?
    Secretary Carson. We have significantly increased the 
oversight in terms of the required reporting that is done and 
then doing the follow ups on those reports when we get evidence 
of anybody, particularly a child under the age of 6, with 
elevated blood levels, pursuing that situation to the apartment 
that they live in or the house that they live in, making sure 
that remediation is done.
    Also, if it happens to be a multifamily dwelling, making 
sure that any other apartments in that dwelling that have 
children--
    Ms. Velazquez. OK, so you are doing proper oversight?
    Secretary Carson. Absolutely.
    Ms. Velazquez. Under the new consent decree, NYCHA will be 
overseen by a Federal monitor for 5 years in order to ensure 
NYCHA complies with the decree's remediation requirements on 
capital repairs. How were you expecting NYCHA to meet these 
terms on these upgrades when you requested zero dollars for the 
Public Housing Capital Fund for Fiscal Year 2019? It is great 
that you are exercising proper oversight, but money talks.
    Here you are in your confirmation hearing saying that 
children's health in public housing is going to be a priority. 
Here we are facing this big crisis in NYCHA, but yet you 
requested zero dollars for the Public Housing Capital Fund for 
Fiscal Year 2019.
    My question to you is: How do you expect NYCHA to resolve 
this issue when you provided zero money?
    Secretary Carson. Thank you for asking that question 
because, in fact, one of the things that has worked so well 
around the country for these capital backlogs is the RAD 
program.
    Ms. Velazquez. OK.
    Secretary Carson. And finally--
    Ms. Velazquez. Reclaiming my time because I know that time 
is running out. You know that the Ranking Member requested the 
GAO (Government Accountability Office) to conduct an 
investigation. They issued a report earlier this year, where 
they concluded that public-private partnerships, such as RAD--
the long-term effect and impact of RAD are not clear yet.
    The GAO report said that the amount of private financing 
RAD is able to leverage is--that they claim to leverage is 
higher than what is actually true. That is the GAO, the arm of 
the Congress. That is what they concluded.
    In light of that, are you going to reassess the 
responsibility and the role of HUD in proving capital funds to 
make repairs and to deal with the issue of mold and lead across 
the country?
    Secretary Carson. We could have a real discussion about the 
GAO's finding with RAD, but I was--
    Ms. Velazquez. Oh, you are going to question now the GAO?
    Secretary Carson. But what I will say is that we are 
continuing to provide significant capital for NYCHA.
    Ms. Velazquez. Zero capital, sir. You requested zero 
capital. You cannot have it both ways.
    Secretary Carson. I am talking about the actual--
    Chairman Hensarling. Time. The time of the gentlelady--
    Ms. Velazquez. I yield back my time.
    Chairman Hensarling. The time of the gentlelady has 
expired.
    The Chair now recognizes the gentleman from Michigan, Mr. 
Huizenga, Chairman of our Capital Markets Subcommittee.
    Mr. Huizenga. Dr. Carson, good to see you up over here.
    I have a lot of ground I want to cover here, quickly. First 
and foremost, I know that you were in Michigan recently, in 
your home town of Detroit.
    Secretary Carson. Yes.
    Mr. Huizenga. Wanted you to, maybe, touch on the EnVision 
centers that you had discussed. In fact, there was a great 
quote from Mayor Duggan from Detroit who said, quote, 
``EnVision centers are about bringing services to people in 
neighborhoods. I am thankful that our partners at HUD chose 
Detroit to open the first one in the country. This new center 
will make the most of the services and facilities to serve the 
community,'' close quote.
    I would love to hear a little bit about the EnVision 
centers and the trip and then, maybe, if you can touch on 
opportunity zones. I want to talk and transition a little bit 
into how do we make sure that FHA, Fannie and Freddie, and the 
rest of the alphabet soup in the housing industry--how do we 
make sure that they are running efficiently? How do they share 
that information? Can we get some common language on that?
    Because I believe we all have a common goal, which is, as 
you said, and I wrote this down, graduate from assisted 
housing. That is exactly what--I know when I was in real 
estate, that was one of my goals was to help people experience 
that opportunity. We all know that opportunity actually equals 
compassion. It's not just sheer dollars getting thrown at a 
program.
    Please tell me a little bit about EnVision and then 
opportunity zones.
    Secretary Carson. The EnVision centers are basically a 
mechanism whereby we can bring the resources to the people who 
need the resources. We are talking about Federal, State, and 
local, as well as private sector, nonprofits, and faith-based 
organizations; all have things aimed at helping people and 
helping people to achieve self-sufficiency, some of which, I 
didn't even know about. But I have been thrilled to see the 
response as people have come in to offer things.
    Because--I think probably the best way to think about it is 
like the HUD-VASH Program. That is a multiagency program in 
which HUD provides the housing and the V.A. provides the 
wraparound services. Through that program, veteran homelessness 
has been reduced by 47 percent and continues to go down.
    Basically, we provide wraparound services for people living 
in depressed economic areas, and giving them some of the same 
kinds of advantages that somebody who had been born into a 
healthy family, with an extended family and a nurturing 
community would have. Those things make a tremendous difference 
in terms of the trajectory of that person's life and where they 
eventually end up.
    For instance, there is an agency that will train elderly 
people in a multifamily dwelling in childcare. They can 
actually get a childcare certificate, and then they can get 
some extra earnings--because in our rent proposal, we are going 
to take away the disincentive for getting extra earnings.
    But also, her next-door neighbor, who is this single woman 
with children, now has a safe place to put her children while 
she get her GED, her associate's degree, her bachelor's degree, 
becomes--
    Mr. Huizenga. Presumably far more affordable.
    Secretary Carson. Independent and teaches that to her 
children.
    Those are the kinds of holistic things that have to be done 
if we are ever going to get out of these chronic situations 
that really shouldn't be going on in this country, as far as I 
am concerned.
    The opportunity zone is a splendid opportunity, secondary 
to the Tax Cut and Jobs bill, where people can take unearned 
capital gains, unrealized capital gains, put them into an 
Opportunity Fund in economically neglected areas. Up to 25 
percent of a State's neglected areas can be designated by the 
Governor. If those are left in long-term, they can have very 
substantial benefits financially for the investor.
    But, more importantly, they draw in those investments into 
these neglected areas. When we combine those with some of the 
other things that are available, New Markets Tax Credit, LIHTC, 
things of that nature, we have an opportunity to do some very 
major renovation--
    Mr. Huizenga. That could go into rural areas as well 
because I actually have the poorest County in the State of 
Michigan it is a rural, traditionally an African American 
vacation spot called Lake County back during the segregation 
area. I have Lake County. I have urban areas like Muskegon and 
Muskegon Heights, Kentwood, Wyoming.
    I have 5 seconds left. I have so many other things I would 
love to hear. I will write you about harmonization of data for 
Fannie, and Freddie and FHA. But I just want to invite you next 
time you are in Michigan, love to have you on the west side so 
we can go visit Lake County, and Muskegon, and Kentwood.
    Secretary Carson. I look forward to it.
    Mr. Huizenga. All right, thank you.
    Chairman Hensarling. Time of the gentleman has expired. The 
Chair now recognizes the gentleman from New York, Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. Let me first say, also, 
I am a product of public housing myself, lived in public 
housing until such time that I graduated law school with my 
parents.
    As I look at public housing today, it is not what it was 
then. The investments that were being made in the public 
housing so that a child like me would have an opportunity, and 
the friends that I had would have an opportunity, are not 
there. When I look at budgets and where we are emphasizing and 
et cetera, the opportunities that I had are not there.
    What I am trying to get is a clear vision of where we are 
going because I still don't see, under the current proposals, 
how we get to there, those things that benefited me and my 
parents. One of the things that, as I talked to individuals in 
the public housing developments that I currently represent, 
they were very in awe or very concerned about their rents going 
up. It is probably the number one issue that is come to me.
    In that proposal, and I understand that you are saying now 
that it's not, but in that he proposal that you had, which 
becomes even more troublesome, is how do you get to deducting 
or not? In your proposal, I think that you proposed, for 
example, to eliminate deductions for medical costs, childcare 
costs, which, I know in a city like mine can be very great.
    If you take away those deductions, then the person is going 
to be compelled to pay a much higher rent if they can't take 
that away from what they have to pay to afford their family. My 
first question is do you concede that if you take away those 
deductions, that this policy will make rent much more expensive 
for individuals.
    Secretary Carson. We have looked at that. We have looked at 
the statistics, and the numbers, and the number of families who 
would be affected. Primarily, you are going to be talking about 
elderly people when it comes to the medical deductions and we 
have already protected them. When it comes to the child 
deductions, the new tax plan actually doubles the child 
deduction. That comes out to pretty much a wash.
    Mr. Meeks. But, no--I think that, I look at my case, if my 
parents couldn't take in my brothers and sisters, I had a 
brother and two sisters. If that cost went up, it was the rent 
that allowed them to give me the opportunity to go to school 
and some other things.
    If they could not pay that rent, we would have been on the 
street. I wouldn't be here today. When I look at--and because 
the other thing that I think that is unfortunate is the 
stereotyping that a lot of individuals in public housing get. 
That no one in public housing works or anything of that nature; 
when, if you look at right now, over 75 percent of the 
individuals that are living in public housing are workers. They 
are working now. They are what we call the working poor, many 
of them.
    Deductions like that, will cause the working poor not to be 
able to move. As a result, I think in essence there's some 
discriminatory practices that happens to the poor that public 
housing is supposed to help.
    Secretary Carson. In my conversations with you in the past, 
I know you are a very reasonable person. We are very happy to 
work with you on those concerns because they are my concerns, 
also. We want, basically, the same thing. We can come to a 
reasonable agreement to how that is done.
    But, when you actually have a chance to look at the 
numbers, you will see the impact is not as great as you might 
think. But, one of the things that is very impactful is the 
fact that we have approximately 3.2 million different rents 
being paid because people who have very similar incomes can 
have very different--and we need to level that--
    Mr. Meeks. Good point--
    Secretary Carson. Make that something that is fair--
    Mr. Meeks. Good point. In that, though, especially in high-
income areas like New York, that cost is substantially 
different. Those who have a high level of rent, where the cost 
of rent is exceedingly high in New York compared to some other 
places. It has an very negative impact on individuals in cities 
like New York, and maybe Chicago and Los Angeles, because of 
what the high cost of living is.
    I don't know if I have time now, because I wanted to also 
know about the Affirmatively Further Fair Housing rule, that I 
understand that is now being changed. Its purpose was to make 
sure that we wipe out discrimination, regardless of its intent, 
because discrimination is illegal. Maybe you can give me that 
in writing.
    Secretary Carson. Sure.
    Chairman Hensarling. Time of the gentleman has expired. The 
Chair now recognizes the gentlelady from Missouri, Mrs. Wagner, 
Chair of the Oversight and Investigations Subcommittee.
    Mrs. Wagner. I thank you, Chairman Hensarling. Welcome, 
Secretary Carson.
    Secretary Carson. Thank you.
    Mrs. Wagner. Thank you, sir. Secretary Carson, the 
Community Development Block Grant Disaster Recovery Program is 
comprised of relief funds which are designed to allow 
communities to rebuild critical infrastructure after a 
catastrophic event. This program is run by your agency.
    In testimony before the full committee last year, you noted 
that some of the things done through the CDBG-DR Program have 
been quote, ``questionable.'' Given the fact that Congress 
appropriated nearly $35 billion this year in this 115th 
Congress for storms in Texas, and Florida, and Puerto Rico and 
has, over the history of the program, dispensed some $85 
billion of taxpayer money, has HUD done anything to address 
some of the questionable concerns, sir?
    Secretary Carson. Thank you for that question. First of 
all, last time we were actually talking about CDBG and in the, 
questionable, as opposed to the D.R. which are two different 
programs.
    But having said that, yes, we have hired a CFO. We have 
been without a CFO for many years, which was quite evident when 
he came in and looked at things. He was ready to run out, but 
we restrained him.
    But, now, we are putting in really excellent financial 
controls, particularly in terms of grant funding. I think you 
are going to see a major difference there.
    Mrs. Wagner. We have taken this up in the committee, also, 
especially based on the inspector general's report last year. I 
hope that you have taken a good look at that, because the I.G. 
indicated--and this is a direct quote--that the department 
faces significant challenges in monitoring disaster program 
funds provided to various grantees, including States and cities 
and local governments under its purview.
    Mr. Secretary, how would you rate HUD's response to the 
most recent storms? What steps has your agency taken to protect 
the billions of dollars in taxpayer money currently being 
disbursed?
    Secretary Carson. Thank you. We have been, obviously, very 
concerned about that with the rash of storms that we just went 
through, and particularly with the large amounts of money that 
are being allocated to the various locations.
    For that reason, we have been working very carefully with 
the local teams in terms of technical assistance and in terms 
of actually having our CFO visit places like Puerto Rico on 
more than one occasion to work with their infrastructure there 
to make sure that the funds are adequately distributed. We are 
going to be monitoring that very carefully.
    Mrs. Wagner. The CDBG-DR program is managed primarily 
through--sadly, through Federal Register notices, some 60 of 
them, which can often be confusing to grantees who are looking 
to secure a grant after a federally declared disaster.
    As you may know--I mentioned a little earlier that, earlier 
this month, our committee passed, on a very bipartisan basis--
and many thanks to your staff for working with us on this. I 
was proud to author this piece of legislation that, among other 
things, would actually codify the Disaster Recovery program and 
provide it with some stability.
    Based on your experience with the most recent disasters, do 
you believe having CDBG-DR in statute, as opposed to Federal 
Register, would produce better outcomes, especially given the 
fact that it often takes HUD months to finalize guidance 
through the Federal Register process?
    Secretary Carson. Yes, I appreciate your interest in that, 
and working with our staff. We will continue to work very 
carefully with you. That is something that could potentially 
have some benefit.
    We do have to make sure that we maintain enough flexibility 
to be able to rapidly respond in disaster areas. But it's 
absolutely a legitimate area to--
    Mrs. Wagner. Why, these will give you more flexibility to 
respond more rapidly, because going through a Federal Register 
with 60 different notices is beyond cumbersome.
    We have many other really good government transparency and 
accountability issues in there, making sure that the money 
actually gets to those that have been affected and need it the 
most, without duplication and with true accountability.
    Do you believe HUD should place a timeframe on how long 
money is available to States and grantees? For example, we have 
funding from disasters that go all the way back, Secretary, to 
9/11 that are out there--billions of dollars, some $14.5 
billion that we believe needs to be recaptured and put into 
future events.
    Secretary Carson. Yes. We have just gone through an 
exercise in recapturing a lot of that. I believe that is a very 
legitimate concern.
    Mrs. Wagner. Thank you.
    Chairman Hensarling. Time of the gentlelady has expired.
    The Chair now recognizes the gentleman from Missouri, Mr. 
Clay, Ranking Member of our Financial Institutions 
Subcommittee.
    Mr. Clay. Thank you, Mr. Chairman, and thank you, Dr. 
Carson. Good to see you after several years; but great to be 
back with you.
    You and I share having grown up in two of America's inner 
cities, you Detroit and me St. Louis. I guess, when we were 
growing up, one of the big challenges for African Americans was 
homeownership. Today, we have reached an all-time low in 
homeownership. And part of that is due to the housing crisis, 
because African American homeowners were steered into higher-
price loans with balloon payments and all of that.
    What I am looking for is a way that we could work together 
on how we help bring those numbers up in homeownership. What 
the value is of homeownership in our society, because we know 
it helps families build wealth. We would like to hear how the 
FHA and GSE may be connected to how we increase homeownership 
in our communities.
    Secretary Carson. Yes. Thank you for your concern in that 
area, because it's a great concern of mine, also. The average 
renter has a net worth of $5,000; the average homeowner, 
$200,000. That is a 40-fold difference.
    But we have to, obviously, do it carefully, because the way 
things were addressed before the housing crisis--they didn't 
consider the fact that putting somebody in a house they can't 
afford is not doing them a favor. They lose the house, their 
credit and their future opportunities. We never want to go down 
that road again.
    But we do have to look at some creative and innovative 
things, some of the self-sufficiency programs, for instance, 
that we have. One of the things that we are working on now is a 
way that we take part of the monthly subsidy and put it into an 
escrow. That is used for the routine maintenance of that 
apartment.
    If there's a lot of routine maintenance--the screens 
already have holes poked in them, the lights are always 
replaced, you are always calling the plumber--it's not going to 
grow very much. But, if you learn to start thinking like a 
homeowner and you learn how to fix some of those things 
yourself, it does grow.
    When you leave, if you can get that money for a down 
payment, because that often is the major barrier; people are 
working hard enough that they would be able to sustain 
themselves, but they would never be able to accumulate a down 
payment. Those are the things that we are thinking about. We 
would be delighted to work with you because it's a great 
concern of mine as well.
    Mr. Clay. Thank you for that response. Having just 
celebrated the 50th anniversary of the Fair Housing Act, HMDA 
data is quite important, when you think about redlining and how 
banks and mortgage companies treat different classes of people 
who want mortgages.
    I would hope that HUD would hold that data and realize how 
important it is, because that is how you fight redlining, and I 
just wanted to hear your thoughts about that.
    Secretary Carson. Absolutely. No, I am well aware of that. 
That is something that we are watching very, very carefully. I 
have told the leaders of the Low Housing Coalition that I was 
willing to work with them, talk with them on how we could 
better address any of the discriminatory practices that they 
found.
    I also offered to them, and I offer that to anybody, if you 
find some real discriminatory issues going on, the kinds of 
things that HUD has neglected in the past, we want to know 
about them. We would be on them like white on rice.
    Mr. Clay. But thank you for that response. One last issue 
is the PACE program. I have had constituents tell me that it's 
a program that works; it puts people to work. I noticed in your 
statement that it was something that you had to put a check on. 
Can you explain that?
    Secretary Carson. Yes, because the PACE loans were placed 
in front of the FHA. It really put the taxpayers at risk. That 
is why.
    Mr. Clay. I see. My time is up. I yield.
    Chairman Hensarling. The time of the gentleman has expired.
    The Chair will now recognize the gentleman from Kentucky, 
Mr. Barr, Chairman of the Monetary Policy and Trade 
Subcommittee.
    Mr. Barr. Thank you, Mr. Chairman. Mr. Secretary, again, 
thank you so much for visiting our district in Central Kentucky 
last January and visiting the Hope Center and Recovery Kentucky 
and St. James Place and Shepherd's House, Chrysalis House, 
Revive Life House; all of those wonderful nonprofits that 
showcased a transitional housing model for long-term addiction 
recovery.
    Secretary Carson. Great examples.
    Mr. Barr. We really appreciated you learning more about 
that and being open to supporting, through HUD programming, 
these models of supportive housing and support and care 
management to reduce substance abuse and addiction.
    The University of Kentucky did a study, as we shared with 
you, that showed that these programs result in avoided costs of 
$2.71 for every dollar spent, because it leads to addiction 
recovery--long-term addiction recovery and self-sufficiency. I 
love what you are doing with these EnVision Centers. I read 
with interest your commitment to the Continuum of Care Program 
to help fight the opioid addiction crisis in our communities 
and, again, contribute to that long-term objective of self-
sufficiency and recovery.
    In addition to those things, how is HUD partnering with 
non-profits, faith-based, and other private-sector entities to 
improve access to counseling and treatment for opioid addiction 
and other substance abuse disorders?
    Secretary Carson. One of the real pushes in the EnVision 
Centers is the counseling and the prevention. The prevention is 
incredibly important, I don't think we have really talked about 
it enough, because it's very easy for a person to become 
addicted. You can do that within a matter of 5 to 7 days.
    But the changes that occur in the brain generally take 
somewhere between 12 and 18 months to reverse so this is an 
incredibly serious issue, and it can happen to anybody across 
all demographics. None of us need to look down our nose at 
somebody who's addicted to opioids, but we do need to be 
working on what we can do to ameliorate that situation, because 
we are talking about the workforce in our Nation.
    Mr. Barr. Thank you. Thank you for what you are doing with 
these EnVision Centers. Congress--we want to help provide that 
flexibility that you have requested.
    The THRIVE Act was passed by the House earlier this month, 
and that provides a demonstration project for housing choice 
vouchers to these nonprofits to provide for a model--supportive 
housing, transitional housing for long-term addiction recovery. 
We want to continue to work with you on that issue.
    Secretary Carson. Thank you for working so hard on that 
issue.
    Mr. Barr. Secretary, we appreciate your commitment there.
    Mr. Secretary, regulations should not unnecessarily limit 
choices or add to the cost of a home. But this unfortunately 
has been our experience with HUD regulations on manufactured 
housing.
    HUD regulations are raising costs for consumers, reducing 
their options for popular amenities, with no safety or consumer 
benefits. Examples of this include; extensive new requirements 
for home features that are completed after a manufactured home 
is delivered onsite, including French doors, tiles surrounding 
the bathroom and carports.
    I want to commend you and your department for announcing a 
comprehensive review of all regulations impacting manufactured 
housing. I appreciate your recognition that those regulations 
governing manufactured housing require a full and thorough 
review. The public comment period for that review ended at the 
end of February. Can you shed some light, for the committee, on 
your plans to reform HUD regulation of manufactured housing?
    Secretary Carson. That has been a major priority of mine, 
recognizing the role of manufactured housing in this country; 
10 percent of single-family housing is manufactured housing, 22 
million families.
    The regulatory burden has been absolutely ridiculous. It 
prevents, for instance, like, in New Mexico, the oil workers--
they can't use a manufactured house because of some of those 
regulations.
    We are looking at those. We are getting rid of those so 
that it makes sense, so that we can use them, because 
manufactured housing has made so much progress. You would not 
be able to tell a manufactured house from a site-built home 
anymore.
    Mr. Barr. Right.
    Secretary Carson. They stand up to hurricanes much better.
    Mr. Barr. When we talk about empowering low-income 
Americans to help them achieve that dream of homeownership, we 
need to unleash manufactured housing not just in rural areas, 
but all across this country, as an opportunity.
    Secretary Carson. It's one of the solutions.
    Mr. Barr. Yes, absolutely, sir.
    We hear this refrain from many of our colleagues on the 
other side of the aisle that the tax bill was tax cuts for the 
rich. You hear that a lot, even though, according to the 
nonpartisan Tax Policy Center, households in the top 20 percent 
of income earnings will pay more in 2018, compared to last 
year, in terms of the total income taxes collected. By 
contrast, those in the lower 60 percent of income earnings will 
contribute less.
    I just want--my time has expired, but these opportunity 
zones--
    Secretary Carson. Yes.
    Mr. Barr. Is an example of the tax cuts helping low-income 
Americans--
    Chairman Hensarling. The time of the gentleman has expired.
    Mr. Barr. I yield back.
    Chairman Hensarling. The Chair now recognizes the gentleman 
from Georgia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Welcome back.
    Secretary Carson. Thank you.
    Mr. Scott. Good to have you, Secretary Carson.
    Secretary, I examined your background and looked at your 
bio, and you and I have some things very much in common. Both 
of our parents did domestic work. Mine, for example--I lived 
with them. We did--my mother was the cook and maid, and my 
father, the chauffeur and butler, up in Scarsdale, New York.
    Secretary Carson. Wow.
    Mr. Scott. Where I was not only the only African-American 
kid in my school at Fox Meadow and Scarsdale Junior High 
School, but I was the only African-American in the whole city--
the only African-American kid in the whole city of Scarsdale. 
But we had parents there that took interest and focused us and 
were hardworking.
    Without that, plus a helping hand, many helping hands, for 
us to come to where you are sitting, as a Cabinet official for 
the President of the United States, and, of course, me in my 
15th year as Congressman. We wouldn't have made it without 
loving parents that gave us that discipline, courage, but also 
the helping hand.
    You, all the way--becoming a neurosurgeon--how mighty is 
that? To come from your background, me, coming from mine, 
sitting in Congress--and here we are, sitting, with each other.
    But it's the helping hand. What is so problematic to many 
people in this country is your inability to understand that 
zeroing out the budget for the one major helping hand for the 
poor, the CDBG program that has gotten over 400,000 jobs for 
people, 1.8 million homes there and you are zeroing out that 
budget.
    I want you to think hard, man, about those helping hands, 
because, when you zero out the budget of the CDBG program, you 
are cutting off the helping hand for the poor. I want you to 
think about that. I want to ask you if you could commit right 
now, before this committee, to just go to the President, go to 
Mick Mulvaney, our budget director, and say, look, let's not 
cut this helping hand out. It's too valuable. Would you do 
that?
    Secretary Carson. I might leave that to you. But what I 
will commit to is the things that work very effectively in that 
program, to maintaining those.
    Mr. Scott. Let me tell you this. In Cobb County, my Cobb 
County in my district, I have just gotten a message from the 
Chairman, Michael Boyce, who's the Cobb County Chairman. Cobb 
County is my largest, most significant county, and they tell me 
that Cobb County alone has experienced a $600,000 decline in 
CDBG funding this year.
    Now, for those who may not know where Cobb County is, it's 
the home of Lockheed, and now it's the home of the Atlanta 
Braves. It's the home of our soccer team that is winning. It is 
the fastest, most economically growing area.
    However, there is a concentration of poor people who need 
this helping hand. I want to ask you to do more than say it's 
up to me to talk to the President. Unfortunately, the President 
isn't going to talk to me. But that is why he has you to talk 
to. That is your job.
    When you were here before, I told you that you were a 
cover, being used to do exactly what you are doing. Now, go 
back to your mother and your father, and my mother and father, 
working in those jobs as domestics--but it didn't stop there. 
You would not be where you are sitting without that helping 
hand. Don't cut the helping hand off.
    Chairman Hensarling. Time of the gentleman has expired.
    The Chair now recognizes the gentleman from Oklahoma, Mr. 
Lucas.
    Mr. Lucas. Thank you, Mr. Chairman. Mr. Secretary, it's 
good to be here with you today.
    Secretary Carson. Thank you.
    Mr. Lucas. As is typically the focus of the committee when 
someone like yourself comes, we have a very strong perspective 
of--from the point of view of our districts.
    I would like to chat for just a moment this morning about 
the Administration's proposed Delivering Government Solutions 
in the 21st Century reorganization plan. Within that plan is a 
proposal to combine the Office of Rural Housing Service from 
the United States Department of Agriculture into the Department 
of Housing and Urban Development.
    Now, I acknowledge to you I represent a very rural 
district, and, potentially, there might even be more cows than 
people in my district. But that is OK, too. Rural communities 
face unique challenges in many ways different and perhaps 
beyond those of the typical Federal Housing Agency buyer. In 
fact, eligible rural homes may not always meet FHA's housing 
standards, due to the rural nature of where they are and the 
infrastructure around them.
    Could you explain for just a little bit or visit with me, 
if you could, about why HUD is a better place or better 
equipped to meet the needs of rural communities?
    Secretary Carson. Thank you for that question. 
Interestingly enough, HUD already services more of the rural 
community than USDA does. It's not a very difficult shift, 
quite frankly.
    The whole purpose of the reorientation is to prevent 
duplication and to increase efficiency, because one of the 
things that we have to recognize right now is we have a severe 
fiscal crisis looming.
    Thirty years--if we continue to accumulate debt at the same 
rate, every penny we take in will be used to service the debt. 
There will be no money for CDBG. There will be no money for any 
program. There won't even be money for the military. There are 
a lot of countries that have gone bankrupt. It is a disaster 
when it happens. It affects everybody. They knew, 30 years 
ahead of time, they were going there, too. But they didn't do 
anything about it.
    They sat there and said, well, you have to give this money 
for this. You have to--what we have to do is we have to learn 
to be fiscally responsible and, at the same time, take care of 
our compassionate needs. I believe that we can do that, but we 
can only do it if we are willing to work together.
    Mr. Lucas. I very much appreciate that, Mr. Secretary. 
Fortunately, like all good reorganization plans, everything 
will have to be considered by Congress and passed in this body 
and the other body, ultimately, before it gets to the 
President's desk.
    Having sat for a number of years next to the OMB Director 
when he was a subcommittee member on this beloved committee, I 
look forward with great intensity to when I get to visit with 
him about some of his plans.
    With that, Mr. Chairman, I enthusiastically yield back and 
thank the Secretary for his time and insights today.
    Chairman Hensarling. Gentleman yields back.
    The Chair now recognizes the gentleman from Texas, Mr. 
Green, Ranking Member of our Oversight and Investigations 
Subcommittee.
    Mr. Green. Thank you, Mr. Chairman. I thank the Ranking 
Member. I thank Dr. Carson for appearing today. Dr. Carson, my 
visit with you will be brief, because I have some closing 
comments that I must call to the attention of not only the 
committee, but of people who may be listening.
    Dr. Carson, there are people in this country who are 
renters, who have thin credit, who pay their light, gas, phone, 
utilities. They pay all of their bills timely, and they can 
afford a home. Homeownership is at a 40-year low. About 25 
million of these people exist, according to the CFPB. There are 
other estimates that will take this number as high as 35 
million.
    We have a bill, H.R. 123. It deals with alternative credit 
scoring, but, really, it's additional credit scoring, because 
it does not remove anything that is currently being scored. It 
simply adds more to it. We passed this legislation initially in 
the FHA--the Economic Recovery Act of 2008. FHA was to give us 
a pilot program, an automated system.
    The question for you is very simply this: Will you work 
with us to develop an automated system so that people who are 
creditworthy--not one person who receives a loan would be 
anything less than creditworthy by the standards that we 
currently have--would you work to help us implement such a 
program?
    Secretary Carson. First of all, thank you so much for 
working in that because it is very important issue, and there 
are different kinds of credit. That is something that we have 
been talking about a lot lately, and we will be very happy to 
work with you on that.
    Mr. Green. Thank you.
    I am going to now move to another area, because, earlier, 
there was a talk about civility and respect. It causes me to 
have to simply say this, where were you?
    Where were you when the President of the United States of 
America said to members of the constabulary, police officers, 
you don't have to be so nice when you have a person within your 
care, custody, and control?
    I am paraphrasing him, but that is what was said. By the 
way, this is not directed to you, Dr. Carson. But where were 
you? Where was your outrage? Knowing the history of police 
brutality in this country as it relates to certain people, 
knowing that you have seen people shot in the back as they were 
running away, knowing that people have been abused at the hands 
of the constabulary when they were literally overwhelmed with 
police officers--Eric Garner, Tamir Rice--where were you? Where 
was your outrage then?
    What is wrong with us? Are we afraid of this President to 
the extent that we can now become outraged because we have 
somebody that we think won't be able to punch back? What this 
President has done to civility is unpardonable. Where was your 
sense of outrage when Charlottesville erupted and a person lost 
her life? Where was your sense of outrage when the President of 
the United States of America said there some very nice people 
among the Klan, white supremacists, neo-Nazis? Where were you? 
What is wrong with us?
    We have a President who is inculcating bigotry into policy. 
It is no accident that they are now talking about doing away 
with diversity visas, after the President has called certain 
countries in Africa S-hole countries. That is bigotry in 
policy. Are you aiding and abetting?
    Finally, this, I didn't come to talk on this subject. The 
door was opened by someone else, and I am going to walk through 
it. This is something we all should remember. Those who make 
peaceful protest impossible make other forms of protest 
inevitable.
    Thank you, Mr. Chairman.
    Chairman Hensarling. Time of the gentleman has expired.
    The Chair now recognizes the gentleman from New Mexico, Mr. 
Pearce, Chairman of our Terrorism and Illicit Finance 
Subcommittee.
    Mr. Pearce. Thank you, Mr. Chairman. Secretary, thanks for 
being here today, and I appreciate your work on these critical 
issues that affect so many.
    Now, in New Mexico, we have a high percentage of our 
housing units are manufactured housing. My question is on 
there, and I will actually let you answer the question.
    We currently--HUD code prohibits manufactured housing for 
being used as multi-family dwellings or multiple-person 
dwellings and so we have a tremendous boom going on in a couple 
of counties so that the infrastructure in Carlsbad is estimated 
to be there for about 25,000 people--current usage in the water 
meters.
    We can't take an exact census. The pressure is up 
somewhere--the estimates are maybe 80,000 to 90,000 people are 
there, using facilities. There--the rent in a local hotel that 
was, last year, about $100 a night or less is close to $600 a 
night now.
    Your average worker just can't afford that. There are no 
houses. You have many manufactured housing units that could be 
converted or would be available for multiple-family or multiple 
people staying in them.
    You had said earlier the department had announced they are 
going to review this problem, earlier this year. Do you have 
any idea of when that review is going to come out.
    Secretary Carson. It should come out this year.
    Mr. Pearce. OK. We are on the way to getting that?
    Secretary Carson. Definitely.
    Mr. Pearce. Any idea of--
    Secretary Carson. It's a priority.
    Mr. Pearce. Are you--is there any clarity on whether or not 
you are going to be able to accommodate these requests from 
local people?
    Secretary Carson. I would expect so, because it's logical.
    Mr. Pearce. Do you have any reports from stakeholders, as 
they made comments about this? Is it something that showed up 
as a problem in the comment phase?
    Secretary Carson. I personally have not reviewed all the 
comments, but I am pretty sure it has.
    Mr. Pearce. OK. But the building codes don't--the--so your 
building codes are trying to assure that everything is built to 
a safe manner, but they are affecting how they are used as the 
number of people in it, which I am not sure I get the 
correlation between safety and the number of people being 
described in it, or whether it's multi-family or not.
    Is that something that you are going to review?
    Secretary Carson. That is illogical, which is probably why 
you don't get it. I don't get it, either. Yes, it's being 
reviewed.
    Mr. Pearce. OK. Now, last year, you and I had the 
opportunity to visit, and you indicated that you might be able 
to come to New Mexico and look at some of the Native American 
housing groups that are building their own houses on 
reservations.
    A couple years ago, we cut the ribbon on a Native American 
home on a reservation--3,700 square feet, 12-foot ceilings that 
would have fit in any of the neighborhoods in Albuquerque.
    It was also financed by a bank, because the tribes are 
beginning to understand, if they give longer-term leases for 
the land underneath those units that they can get that public--
or get the financing from the banks. Is that something that you 
still would entertain a visit out into New Mexico to look at 
some of these units?
    Secretary Carson. I think that would be very interesting. I 
saw my travel budget. I only have $21,000 left. I will get 
there eventually.
    Mr. Pearce. We travel pretty cheap in New Mexico. We can 
figure that out.
    I would welcome you there, because New Mexico has, 
probably, a greater percent of population struggling in 
poverty--we have almost 45 percent of people on Medicaid in the 
State--905,000 people out of a 2 million population.
    If there's any place that needs housing in order to 
establish that first foothold and make the way up the ladder of 
life, then--
    Secretary Carson. Absolutely.
    Mr. Pearce. That is something that I think that we would 
find useful--and the discussion between yourself and New Mexico 
residents. We look forward to hosting you there. Then we have 
great Mexican food, great green chile. We look forward to 
seeing you there.
    Secretary Carson. Thank you. I met a young woman from New 
Mexico yesterday, a Presidential scholar, absolutely 
incredible.
    Mr. Pearce. OK. All right, thank you, and I appreciate your 
service, sir.
    I yield back, Mr. Chairman.
    Secretary Carson. OK.
    Chairman Hensarling. The gentleman yields back.
    The Chair now recognizes the gentlelady from Ohio, Mrs. 
Beatty.
    Mrs. Beatty. Thank you.
    When we opened the session, today, I believe it was our 
Chairman that started with words like, I believe that words 
matter. Let me just say, I certainly believe that words 
matter--talked about diversity of words.
    I not only believe in diversity of words, but I believe in 
diversity in race and ethnicity. I believe in diversity in 
housing. We certainly know that there are many disparities. We 
have heard some of our colleagues talk about redlining, 
discrimination in housing.
    But let us go to diversity of words, whether they are the 
words we speak here--certainly, thank god for technology and 
playing back those tapes of--whether it is you sitting as the 
Secretary, whether it was Secretary Donovan, whether it was 
Chairman Cordray sitting there. We all should look at some of 
those tapes before we make comments.
    But let me just say to you, when you were here before, we 
certainly had a dialog about my expectations of diversity in 
words through written communications. I had shared with you 
that I had sent you a letter on my congressional stationery, 
last year, about HUD's policies on FHA. In March, I joined with 
other members, including the Chairman of the Congressional 
Black Caucus. I, then, sent you a signed letter. Are you 
familiar with that letter that we sent you about 
antidiscrimination?
    Secretary Carson. I have gotten so many letters. Could you 
remind me of the content please?
    Mrs. Beatty. OK. This is going to be like deja vu, because 
we had this conversation, and I was very clear with you that my 
expectation would be, like any other Secretary or Chairman, 
that, if I would send you a letter, would you make a commitment 
to read it and look at it?
    I don't know how many letters you get from Members of 
Congress, but I know, if you sent me a letter signed by you and 
my chief of staff or staff got it, it would appear on my desk. 
If I knew I were coming back here after being drilled by a 
member who has oversight of your department, I would probably 
make a little special effort. We all have.
    We have heard about people who have mobile homes or 
agriculture. My thing, which I have said repeatedly to you, is 
I am concerned that we don't discriminate. When you have a 
staff person that circulates a letter that you are going to 
remove antidiscrimination--letter--words from your mission, 
that was very--concerning enough to not only me, but two other 
members on this committee, the Chairman of the Congressional 
Black Caucus.
    Let me ask you--I didn't get a response back from you. Two 
months later, I got a response back from some staff person who 
I don't know. That is very bothersome to me, because this is 
deja vu. We had this conversation. Words matter. Your words 
were that you would respond if you got a letter from me. It 
didn't happen, again.
    You are an African American male who touts that you grew up 
in public housing. Let me go to the real question. Are you 
circulating or looking at taking that antidiscrimination clause 
that your staff said was going to happen? Respond to that part, 
because I can tell you--
    Secretary Carson. I am happy--
    Mrs. Beatty. You didn't see the letter. You didn't sign the 
letter. Two months later, some staff person sent me a letter 
back.
    Secretary Carson. I am happy to respond to that. We have a 
process in place where we decided that we would change the 
statement so that it would be shorter, something that people 
could remember, but that would still encompass all the goals. 
The first--
    Mrs. Beatty. Can you tell me what that statement--tell me 
the new statement, so I can compare it and read to you the 
statement that they were stating was going to be changed.
    What are you replacing with that, ``HUD's mission is to 
ensure Americans have access to fair, affordable housing and 
opportunities to achieve self-sufficiency, thereby 
strengthening our communities and Nation?''
    Secretary Carson. OK. That is the first iteration. The 
second iteration went through the entire senior staff. The 
third iteration was--
    Mrs. Beatty. OK, so what is the last iteration of it? What 
is the final?
    Secretary Carson. The last iteration goes to all HUD 
employees throughout the Nation. That is why the process is 
taking a while. This is the first time it's ever been done that 
way.
    Mrs. Beatty. In the interim, is this in or out?
    Secretary Carson. That is not the final statement.
    Mrs. Beatty. OK, so what is the statement? We are operating 
now.
    Secretary Carson. We haven't gotten to the final statement 
yet. We are still going through the process.
    Mrs. Beatty. Sorry, my time is about to run out, and I 
wanted to ask you about the rent, but we will get back to that.
    Chairman Hensarling. The time of the gentlelady has 
expired.
    The Chair now recognizes the gentleman from Florida, Mr. 
Posey.
    Mr. Posey. Secretary Carson, thank you for your amazing 
service and your much-needed leadership of an agency that has 
wandered in the wilderness for too many years. Thank you for 
coming here today and answering questions and accusations and 
attempting to answer questions where you were asked them and 
they wouldn't allow you time to answer them. But thank you for 
the gentlemanly way that you make us all proud.
    Secretary Carson. Thank you.
    Mr. Posey. I know that you agree with me that homeownership 
is at the center of the American dream. In July 2016, Congress 
passed H.R. 3700, directing HUD to adopt rule changes to ease 
the owner's restrictions on FHA loans as they pertain to 
condominiums.
    In September 2016, FHA published such proposed rules, in 
accordance with the Congressional request. Those proposed rules 
would open up homeownership to many more well-qualified first-
time homeowners. Unfortunately, the agency has not yet 
finalized the rules. On the 20th of June, I sent a letter, 
along with my good friend from across the aisle, Congressman 
Cleaver, and 120 other members--about 25 percent of the House. 
Just a diverse, across the universe section of lawmakers as you 
will ever find, asking to finalize the rule as soon as 
possible.
    I would like to ask unanimous request to enter my record 
and the other signatures--
    Chairman Hensarling. Without objection.
    Mr. Posey. I just wonder if you could bring us up to date 
as to where we stand on that right now.
    Secretary Carson. That happens to be a very important 
issue. Because a condominium is frequently the first step in 
entering into the homeownership market; and, particularly for 
millennials. That is why I have been so concerned about it. We 
have been pushing it.
    It is a complex issue because when you are talking about a 
single or just a couple of units in an entire complex, the 
risks go up quite a bit for the guarantor. We are working all 
that out. The final rule should be out in September.
    Mr. Posey. OK, thank you. Because you have been asked 
questions, and cast aspersions and accusations and have not 
been allowed the opportunity to respond, I would like to yield 
my remaining time to you for any remarks you would like to 
make.
    Secretary Carson. Thank you for that. I would simply want 
to say that particularly when we go back to the issue of 
civility, our country is an incredible place. It is very 
strong. There is no one on the outside who can bring this 
country down; but, we can bring it down from the inside.
    Jesus said, a house divided against itself cannot stand; 
that was echoed again by Lincoln. When we get to a place where 
we can't even hear the other side, we are just waiting until 
they stop so we can talk about what we believe, we are in a 
very dangerous place right there. I hope that people use their 
spheres of influence to help save our Nation.
    Chairman Hensarling. Does the gentleman, yield back? The 
gentleman yields back. The Chair now recognizes the gentleman 
from Massachusetts, Mr. Lynch.
    Mr. Lynch. Thank you. Dr. Carson, I appreciate your last 
remarks. I would just ask you if you could pass that on to the 
President as well, about the need for civility.
    Secretary Carson. Should go to everybody. I agree with you.
    Mr. Lynch. Yes. I do appreciate your remarks about fiscal 
responsibility, but I do have to point out that the recently 
passed Trump tax cut adds about $2.3 trillion to the debt over 
the next 10 years. It seems like we are running as fast as we 
can toward bankruptcy, not away from it.
    But, I am one of the very few Members of Congress who's 
actually grown up in public housing in South Boston, the Old 
Colony Housing Projects. Now, the Anne Lynch Old Colony--Homes 
at Old Colony, named after my mom. My five sisters and I grew 
up there with my mom and pop.
    But, like your family, I know your history. I think a 
little while in Dorchester, in Boston. That is where I was 
born.
    Secretary Carson. Right across from Franklin Park.
    Mr. Lynch. Great golf course. I take some soil samples 
there probably once a week.
    But, like your family, things weren't always easy and we 
struggled. My dad used to say that the there were times in our 
family where we had to save up to be poor. I think he was only 
half-kidding.
    But, public housing was a blessing to us. We would have 
been homeless without it. There are a lot of people that I 
represent in Dorchester, and in South Boston, and other parts 
of my district that the rents are going up so fast that we not 
only need affordable housing for low income, but we need 
affordable housing--what we call workforce housing. That is 
where people with a mom and a dad both working full-time jobs, 
sometimes a couple of jobs, and they still can't afford a two-
bedroom apartment. It's ridiculous.
    I worry about the direction that the Federal Government's 
going in. I worry about some of the policies that have been 
articulated by HUD recently. Developing public housing is a 
shared responsibility. I see the States trying to step up. The 
State of Massachusetts is doing a great job. Our cities are 
doing their best, but the special sauce that makes us all work 
is really CDBG grants and the Low-Income Housing Tax Credits, 
and the Historic Housing Tax Credits.
    Historic--we are converting a lot of our old, old buildings 
into affordable housing. That Historic Credit helps a lot. 
Today, you need about six or seven different sources of funding 
to get a project done. That Low-Income Housing Tax Credit 
actually attracts private capital into those projects. It 
really makes it work.
    I worry when I hear that we are backing off from that 
commitment at the Federal-level. Because, I think that is a 
private investment, when they buy those Low-Income Housing Tax 
Credits. We turn that money into public housing; and, it's 
private money that does so.
    I think it is a private side model that works. I am just 
very nervous about the Administration not understanding that 
and backing away from that commitment. Do you have any 
clarifying remarks on that?
    Secretary Carson. Sure. First of all, the Low-Income 
Housing Tax Credit was preserved in its entirety in the new tax 
cut bill. We do fully recognize its importance. I think that 
combined with some of the other programs, including the 
Opportunity Zones, will provide some of the extra funding that 
you are talking about.
    As I have traveled around the country and I have looked at 
some of the developments, like East Lake in Atlanta, which was 
in the worst area possible in terms of crime, poor school 
performance, everything that was bad. Look at it now, it is a 
model community. The schools are achieving at highest levels, 
there are charter schools, higher than the private schools in 
the area. There's no food desert. You have jobs.
    Those are the kinds of developments that we need to create 
around the country. This is what we are concentrating on now. 
It is done best through public-private partnerships, but it has 
to be done in a way that you have win-win situations for 
everyone.
    Mr. Lynch. I just want to clarify--thank you, I appreciate 
that. But the analysis of the tax bill says it will reduce the 
number of affordable housing units by 235,000 units. That is a 
troubling remark.
    But I thank you for your indulgence, Mr. Chairman, and I 
yield back.
    Chairman Hensarling. The time of the gentleman has expired. 
The Chair now recognizes the gentleman from Illinois, Mr. 
Hultgren.
    Mr. Hultgren. Thank you, Mr. Chairman. Mr. Secretary, thank 
you. Thank you for being here. Thank you for your work.
    I want to jump right into a couple of questions if I may. 
The McCarran-Ferguson Act generally states that unless Congress 
says otherwise, insurance is regulated by States and at the 
State-level here in the United States. Do you believe that HUD 
has the authority to regulate insurance, housing insurance or 
otherwise?
    Secretary Carson. I have not read any document that gave us 
that authority.
    Mr. Hultgren. Thank you. I am going to move onto a specific 
situation. My district's just outside of Chicago, the western 
suburbs and northern suburbs of Chicago. But I did want to just 
ask a little bit about some discussion that we recently had 
seen, a Washington Post article and some situations in Cairo, 
Illinois, which is far other end, far southern part of 
Illinois.
    On May 2, 2018, a Washington Post front page article 
entitled ``As Cairo Illinois Recons with Public Housing Crisis, 
Basketball Hangs On''. It discusses the dynamics of an Illinois 
town of about 2,300 residents where public housing had 
accommodated one quarter of that population, and there's no 
grocery store, no hospital, no community center, their poverty 
rate is 46 percent, yet a few years ago HUD made a decision to 
demolish the Elmwood-McBride public housing complexes, an 
action that some believe caused the death of the town.
    Mr. Secretary, I wonder if you could give us an update on 
what is happening in Cairo in terms of the demolition of this 
public housing unit and if you could talk a little bit why did 
HUD decide to demolish the buildings and what were the 
circumstances that caused the department to walk away from the 
investment?
    Secretary Carson. This was a housing complex that was 
severely neglected by the public housing authority. In fact, we 
have pressed charges against two of the individuals; they 
should get what they deserve.
    But it had fallen into such disrepair--lead, mold, rats, 
roach--it was uninhabitable. It could not be rehabilitated, and 
that was the reason. They had to go into conservatorship and 
then close down. We protected everybody in there.
    Mr. Hultgren. Could you talk about that a little bit, so 
what did happen to the tenants and what is the plan there?
    Secretary Carson. Housing choice vouchers, everyone, not 
only that we provide housing choice vouchers, but we provided 
counseling and assistance in terms of how to be able to move.
    The reason that that was important to do is because this is 
a town with no industry, no jobs, so let's say you had gone and 
replaced it and built a new building, there still would have 
been nothing to support it.
    Those are the kinds of things you have to look at. When I 
was there talking to the State officials, I said, look at the 
location of this place. You have the rivers coming in there, 
you have the railroads. It is actually a place where something 
could be done, but I think that is a different investment. But 
until you have the businesses there, you are not going to be 
able to support the community.
    Mr. Hultgren. Yes, thank you, well I appreciate you helping 
us understand that a little bit more. Just transitioning, in my 
last minute plus; first, again, I would like to thank you for 
the opportunity to applaud your action to reverse outgoing 
Secretary Castro's proposed mortgage insurance premium 
reduction.
    A decision that is supported by comprehensive analysis in 
the most recent actuarial report on the health of the mutual 
mortgage insurance fund, the FHA plays an important role in the 
housing finance system, but its market share is significantly 
elevated above historic norms.
    From a sustainability standpoint, I believe a defined 
footprint would be appropriate to ensure that the FHA is not 
exposing taxpayers to undo risk while insuring that it can 
serve the borrowers who need the agency the most. What exactly 
is FHA's mission and more specifically, do you favor a more 
precise statutory definition for the agency's purpose and 
mission?
    Secretary Carson. The agency's purpose is really to 
stabilize the housing market. It has an accordion effect, when 
credit is easy to get, it shrinks, when credit becomes 
difficult and the market becomes difficult, it expands.
    It is a very stabilizing force, and it provides 
opportunities for a lot of the lower income people, first time 
homebuyers, and that will continue to be very much the mission 
of FHA.
    Mr. Hultgren. Do you believe that the FHA should work to 
reduce its footprint and focus on borrowers that truly need the 
taxpayer backed agencies, I guess especially when maybe that 
accordion is shrinking?
    Secretary Carson. I think the key thing is for them to 
remain in that accordion position so that we keep the market 
stabilized.
    Mr. Hultgren. Thanks, my time is expired, thank you, 
Secretary.
    Chairman Hensarling. Time of the gentleman has expired. The 
Chair now recognizes the gentleman from Connecticut, Mr. Himes.
    Mr. Himes. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary for being with us today. We haven't had an 
opportunity to chat or meet, so I would love to just tell you a 
little bit about my district and then ask you very a specific 
question about a HUD program that is important to the region I 
represent.
    Mr. Secretary, I represent one of the most affluent 
districts in the country, Fairfield County, Connecticut, 
communities of real affluence, but also communities of intense 
poverty.
    The city of Bridgeport is a struggling city and Norwalk and 
in Stamford and I know you were just in Connecticut, so you got 
a little bit of a feel for this. The reason I highlight that is 
because in those communities, people who are struggling in 
poverty are not just struggling in poverty, but they are going 
through it right cheek by jowl with immense affluence.
    I have appreciated your testimony, but one element of the 
testimony stuck in my craw a little bit, which is when my 
colleagues were concerned about the raising of rent for people 
at the very lowest income levels, assisted by HUD programs from 
$50 to perhaps $150, I think you and I could sustain that rent 
increase pretty comfortably. But for an awful lot of the 
families in Bridgeport and Norwalk and Stamford, that 
difference is the difference between eating, buying medicine, 
saving a little money for their kids to go to school.
    I am thrilled your answer was that there are not that many 
people who fall into that category, and that makes me happy, 
although I am not sure that, as a country, we have necessarily 
reduced the number of people living in that kind of poverty, 
but I would just ask you in the context of your answer, just 
because there is not that many people living in those 
conditions, again you and I could sustain those rent increases, 
but I know that they can't.
    I know that the choices that are forced on them by that 
program would be very, very difficult. In my community, not 
only do I have some pretty intense poverty in some of my 
communities, but because it's a very high cost area like 
Washington, like San Francisco, like New York City, right up 
until the upper middle class, people are housing stressed, 
meaning paying more for rent or that mortgage than is 
comfortable for them to do so.
    At some level it's not even comfort really, it's do I get 
to save for my children's college education because my mortgage 
or my rent is so high? That leads to things that maybe are not 
morally as devastating as the conditions of poverty, but a lot 
of my communities, firefighters and policeman and teachers 
can't live in the towns in which they serve, which means that 
they are not coaching little league or really participating in 
the communities that they serve.
    I think your mission is a huge one and important one, 
particularly for those of us who live in very high cost areas. 
The specific--and by the way, I look forward to, as I did with 
your predecessors, talking about the larger issues that you 
deal with.
    But the specific question I have for you, Mr. Secretary, I 
want to highlight Federal Financing Bank programs. Federal 
Financing Bank partners with the FHA in a public-private 
partnership to basically provide low cost capital, distributed 
through a network of local housing finance agencies. It has 
been a very successful program, helping to finance some 20,000 
affordable homes across the country, including 3,000 in New 
York City, which is actually part of the economic ecosystem in 
which my district operates.
    This program will expire at the end of this Fiscal Year 
unless HUD extends it. I hear that HUD is possibly thinking 
about not extending that program. This is a public-private 
partnership. It doesn't cost the Government money. It's been 
very successful, witnessed by the volume of housing that it has 
produced.
    My question, and I may be catching you off guard on this, 
but I would ask you to think about a more comprehensive 
response if I am catching you off guard; but would you support 
extending the Federal Financing Bank and Risk-Sharing program 
to ensure that housing finance agencies can continue to finance 
affordable housing preservation and development in a low cost 
manner?
    Secretary Carson. First of all, just addressing something 
you said a little bit earlier; for those families who have 
extensive hardships with any rent increase, we do have waivers 
that we can extend in those situations, and would do so.
    As far as the FFB is concerned, we have been engaged in 
those conversations recently. I am waiting for my people to 
give me a definite recommendation on that.
    Mr. Himes. Thank you and I appreciate that. I know that HUD 
is a complex thing. I am close enough to it to know that some 
things work really well, and some things work less well. This 
program is one, certainly where I come from, that works very, 
very well, so I hope you will give it your most comprehensive 
and ultimately positive consideration.
    With that, I yield back the balance of my time.
    Chairman Hensarling. Gentleman yields back. Chair now 
recognizes the gentleman from North Carolina, Mr. Pittenger.
    Mr. Pittenger. Thank you, Mr. Chairman.
    Dr. Carson, thank you, my friend. You are a model public 
official. You represent the best of all of us. Like America, 
America seeks--it is the most generous country in the world. We 
seek to be a safety net for those who need help, you want to 
become independent and self sustaining.
    At the same time, you represent a good steward. You are 
seeking the best interest of the American taxpayer. You are 
trying to reform an agency that hasn't been reformed since the 
1980's; 4.7 million people are involved in it. That is a lot of 
vested interest. You are willing to wade in through an area 
with a lot of folks who want to come after you. I thank you for 
your demeanor. Proverbs 15:1, it says, ``a soft answer turns 
away wrath.'' You know that verse well.
    Secretary Carson. A grievous word stirs up strength.
    Mr. Pittenger. Yes, sir, it does. You represent the best of 
that.
    Secretary Carson. Thank you.
    Mr. Pittenger. I think that frankly, is why you will 
continue to be so successful.
    I would also like to thank you for coming to Fayetteville. 
You showed those good folks down there that you care. Ninety-
eight thousand homes were ravaged through Hurricane Matthew. 
Eighteen thousand businesses were virtually destroyed. You took 
the time to come to that small community town to say, I am 
going to stand with you now, and in the future. I want you to 
know, they received that with deep gratitude. I do. There are 
still funds we are waiting to have released from our State that 
you have sent down. You allocated it. We don't seem to be doing 
as good a job in the State dispersing it.
    Secretary Carson. Right.
    Mr. Pittenger. Other States have, and that is our problem. 
I would like to know from you any way that you think we can 
incentivize or force, or timelines or whatever, States to 
better do their job? It is hard enough on the Federal level 
working with FEMA and all the data you have to collect and 
everything that must be done. But there are people still 
waiting, not as a result of what has happened here, but frankly 
in our own State.
    Secretary Carson. A lot of States--first of all, thank you 
for your incredible dedication to the people in North Carolina. 
I enjoyed very much being down there with you. The people there 
obviously enjoyed you being there, too.
    Mr. Pittenger. Good barbeque.
    Secretary Carson. I just hope that we can find a way to get 
the States to move more rapidly. Maybe we should put a time 
limit on the money. It's something that I have been thinking 
about a lot, because I have been looking through the books. 
There are places that have money left over from 10, 11 years 
ago. It doesn't make any sense.
    Mr. Pittenger. That is irresponsible.
    Secretary Carson. Yes, so, yes, we are looking at that. We 
have to come up with something.
    Mr. Pittenger. It is interesting. South Carolina had 
dispersed the money for the same reasons that you had sent to 
them. Our State, for some reason was dragging on and hadn't 
done it, so.
    I do have one other different issue I would like to raise 
with you in the minute and a half we have left. There's a top 
official in HUD last week, who referred to the critical element 
of housing finance reform as the need to modernize the risk 
management and technology platforms of the FHA.
    According to this official, and I quote, ``the difference 
now, between the FHA and say, Fannie Mae or Freddie Mac, are 
truly stark. We really are in the dark ages.'' Mr. Secretary, 
how concerned are you about the current state of FHA's risk 
management and technology platforms?
    Secretary Carson. I am very concerned. We are looking at 
close to $1.3 trillion. That is a lot of money. You are also 
looking at people's personal information. There is a lot of 
stuff there. We are so far behind, we can't keep up with the 
financial markets that we are dealing with. That makes it much 
easier for people to potentially get into our systems and wreak 
havoc.
    Why should we wait until that happens, and then become 
alarmed about it? Why don't we do something about it before 
that happens? I hope we can get that message across to all the 
appropriate appropriators.
    Mr. Pittenger. Given the fact that the taxpayers already 
own Fannie Mae and Freddie Mac, why couldn't FHA leverage 
Fannie and Freddie systems in this process?
    Secretary Carson. What would be nice is if, instead of 
allowing the money that is generated going back to the 
Treasury, we would be able to use some of that money to do what 
needs to be done. That would solve the problem.
    Mr. Pittenger. Thank you, sir. My time is expired. I 
appreciate you very much.
    Chairman Hensarling. The time of the gentleman has expired. 
The Chair now recognizes the gentlemen from Washington, Mr. 
Heck.
    Mr. Heck. Thank you, Mr. Chairman. Dr. Carson, thank you 
very much for being here, sir. I want to begin by commending 
you for your consumption, the newly issued report of the New 
Democrat Coalition Housing Taskforce, entitled ``Missing 
Millions of Homes.'' I know we have sent this to your office. I 
hope you will take the time to read over it.
    Our conclusion is that we are missing millions of homes. 
That conclusion was based, in some part, on data that we 
actually collected from HUD, and that this has resulted--this 
is characterized as a shortfall in construction, and both 
subsidized and market rate construction.
    Do you agree? Are we missing millions of homes in America?
    Secretary Carson. We have a severe shortage.
    Mr. Heck. We also have the perspective that there is 
pressure on public housing authorities and other Federal 
housing programs that is just going to continue to grow and 
grow, until we figure out a way to boost construction 
throughout the market continuum, frankly.
    But, especially in parts of the country where the shortfall 
is the greatest, we don't have a national housing market but we 
have a national housing crisis, in my opinion. In those areas, 
that is where prices are growing, frankly, at astronomical 
rates. What can HUD do? What can HUD do to increase 
homebuilding, overall, in publicly owned or privately owned 
units? I would add as a qualifier, especially in walkable urban 
areas near mass transit, which is, frankly, where there is an 
increased demand in the marketplace of late. What can HUD do?
    Secretary Carson. One of the things we are looking at doing 
right now through the AFFH is incentivizing people to remove 
the barriers to the creation of affordable housing. There are a 
lot of barriers, zoning restrictions, all kinds of things that 
prevent us from being able to provide affordable housing. If we 
begin to concentrate on those things more, I think, we can get 
it done.
    The other thing we have to recognize is, the more people 
that we can empower and move through the system, the more room 
we make for those people in line. We have to tackle it from 
both ends.
    Mr. Heck. Is there a way, are you implying, sir, that HUD 
could use its capacity to incentivize, increase construction in 
the marketplace?
    Secretary Carson. Absolutely.
    Mr. Heck. You would be not only receptive to, but 
supportive of that as a concept?
    Secretary Carson. Very much so.
    Mr. Heck. I also want to make this point that our data 
shows that for a typical family, it's actually the cost of 
shelter, not what you might intuitively conclude as either 
health care or post-secondary education, but housing that has 
grown the most over the last 15 to 20 years. Obviously, health 
care cost and education cost get a lot of attention; and, 
frankly, I think they should.
    But, I don't think we spend nearly enough time talking 
about what I would characterize as the crisis in housing costs. 
What can you do? What can HUD do with your platform to raise 
the profile of this issue, overall?
    Do you agree with our premise? Do you--this is data, in no 
small part, derived from you; housing costs are increasing 
faster than even health care and education. Again, this is 
across the market. This isn't just people not being able to 
graduate into the bigger, better house. It is people not being 
able to get a starter home. It is rent-burdened people.
    It is people who are publicly subsidized, who are having an 
even more difficult time maintaining shelter within that, which 
results in an increased number of homelessness. What can you do 
to raise the profile that this is an issue that affects the 
entire continuum of housing available to people?
    Secretary Carson. It is something that both myself, and the 
deputy Secretary talk about frequently in our public speaking. 
But, I think also, we have to be looking at innovation, new and 
different ways of providing less expensive housing that still 
is quality in nature.
    We ought to start looking at ways of producing things 
through computer models in three dimensional models. Some of 
the things are really quite exciting; our innovation department 
is investigating them now. But, we have to change with the 
times.
    Mr. Heck. Are they, Dr. Carson, are they looking at what we 
would have called manufactured housing? I don't like that term 
as it relates to what I am trying to ask, but--
    Secretary Carson. We are looking at that as well.
    Mr. Heck. But modular housing where it's factory created?
    Secretary Carson. Yes.
    Chairman Hensarling. Time of the gentleman has expired. The 
Chair now recognizes the gentleman from Georgia, Mr. 
Loudermilk.
    Mr. Loudermilk. Thank you, Mr. Chairman. I appreciate the 
opportunity. Dr. Carson, thank you for being with us today. I 
also want to thank you for your leadership and the new ideology 
that you are bringing in to this organization. Especially with 
the fiscal responsibility that you have spoken so eloquently 
about, the fact is that if we are not fiscally responsible, at 
some point the money runs out and there is nothing to help 
anyone with. I appreciate that.
    I also appreciate you recognizing the importance of 
separating the powers of the Federal Government from the State 
government, and especially regarding McCarran-Ferguson Act, 
which you have spoken about earlier. I do have an area of 
concern that has arisen recently, especially with the city of 
Atlanta.
    Trio is a provider that actually provides, for lack of a 
better term, a lease-to-own type of mortgage for those who are 
on the cusp of--they can't quite get a traditional mortgage. 
But, they help these families to go into a lease agreement that 
would end up with a traditional mortgage.
    The city of Atlanta's Finance Authority formed an 
interagency home finance corporation in 2016, which qualifies 
as an instrumentality of government under HUD's definitions. 
They have been participating as an FHA-insured borrower. Seven 
national mortgage lenders are now participating in the program 
and another 10 are in the onboarding process.
    Additionally, AmWest is a national mortgage lender with 
offices and ownership in Georgia, and they have been 
participating in the program since 2016. This issue was brought 
to us by some of those organizations and the city of Atlanta 
that, on May 17th, HUD abruptly removed the city of Atlanta's 
Housing Finance Authority from the non-profit roster without 
any prior notice.
    The result of that has left dozens of families in my 
district and around the city of Atlanta in limbo, pending HUD's 
legal review. As a result, some have already lost the financing 
on their homes, and the opportunity to use this program. 
Really, my question was, were you aware of this happening? Is 
this something that you could look into to help us rectify on a 
timely basis?
    Secretary Carson. I heard about this earlier this week. It 
is concerning. I want to find out the rest of the details. We 
have a group of people who are looking into that right now. I 
expect a resolution sooner, rather than later.
    Mr. Loudermilk. I appreciate that. As you have stated so 
often, we do care, to make sure that everyone has the ability 
to have a quality home, especially those that just can't quite 
get there. But, what we can do to help, especially through the 
private sector as this is doing. I really appreciate you 
working with us, too. Again, we are getting the information on 
it. I appreciate your staff working with that.
    Secretary Carson. Absolutely.
    Mr. Loudermilk. With that, Mr. Chairman, I will yield the 
remainder of my time. Thank you.
    Chairman Hensarling. Gentleman yields back. The Chair now 
recognizes the gentleman from Minnesota, Mr. Ellison.
    Mr. Ellison. I thank the Chair and the Ranking Member. 
Welcome to committee, Dr. Carson.
    Secretary Carson. Thank you.
    Mr. Ellison. I am a Detroiter, too. I am representing 
Minnesota and I have for the last 30-some years. But I went to 
high school and grade school right there in the city of 
Detroit.
    Secretary Carson. Wayne State, too, right?
    Mr. Ellison. Yes. Anyway, Mr. Secretary, I will admit to 
you that when you became HUD Secretary, I met with people in my 
community who I work with on housing, and because of just 
politics, not all of them were excited about you becoming HUD 
Secretary.
    But we agreed that we would invite you to our district to 
talk with you about your ideas and share with you ours. I wrote 
you a letter on I believe March 22, inviting you come and it 
didn't get a response, so I wrote you another letter on July 6, 
and that got no response, so we sent you a e-mail, and in the 
e-mail your assistant said that you didn't get the mail and 
apologized for that, but said that they don't have any travel 
plans booked for Minnesota.
    I want to offer an invitation to Minnesota, and I want to 
tell you that I will guarantee that you will be treated with 
the utmost respect even if people have very different opinions 
than you hold. Will you come?
    Secretary Carson. I appreciate--you will invite me in the 
summertime, right?
    Mr. Ellison. I am thinking more like fall, but it still 
will be nice. It is Michigan weather basically, plus five 
points on the cold side.
    Secretary Carson. What I really appreciate about your 
invitation is that you said we would be treated with respect.
    Mr. Ellison. Yes, I will guarantee it.
    Secretary Carson. Because I think that is how we make 
progress.
    Mr. Ellison. But let me tell you--so what do you think? 
Will you come?
    Secretary Carson. I would certainly not be disinclined.
    Mr. Ellison. I just want you to know that it's--we believe 
that no matter--we want to work with the Secretary no matter 
who it is, and we are looking for ways to help put people in 
more housing in a better set of terms for them.
    We have a serious affordable housing crisis in Minneapolis 
and in all of our whole State of Minnesota it just won't do to 
not be in conversation with the Secretary regardless of our 
philosophy versus yours.
    Secretary Carson. Exactly.
    Mr. Ellison. I am for the whole world I have asked you and 
for the whole world I think you are saying you will think about 
it.
    Secretary Carson. We will put it on the list, absolutely.
    Mr. Ellison. Yes, because when I hear other members saying 
that you went to their district, I am thinking, wow, we are 
nice people in Minnesota too, and we would love to see the 
Secretary.
    Your predecessor Julian Castro came three times, and he can 
assure you that we are serious about working on housing, and 
that will be the focus.
    Secretary Carson. All right, sounds good to me.
    Mr. Ellison. Now, he came three times. You shocked? Anyway, 
I will say that I was a little surprised in a not good way when 
it appeared as though the HUD mission statement removed the 
phrase build inclusive and sustainable communities free from 
discrimination.
    Is that going to be the final mission statement under your 
secretaryship?
    Secretary Carson. You probably weren't here when I 
addressed that earlier, but, it's a three part process. The 
first part we said we would find a way to shorten this 
statement so that people can remember it.
    The second part was a broader exposure to the entire 
leadership team and the third iteration was everybody at HUD, 
including in the field offices, and we are in the process of 
gathering all that.
    Then the final statement will come out. This was by no--
this wasn't even close to the final statement, but people saw 
it as an opportunity to--
    Mr. Ellison. Forgive me, sir, because we have limited time. 
State for me and the world your commitment to making sure that 
anti-discrimination in housing will be a part of the mission 
statement under your leadership.
    Secretary Carson. When we get back the feedback from all of 
our people that will be what it is going to be, and if it 
includes that, absolutely.
    Mr. Ellison. Let me also say that I am more than a little, 
I am actually quite a lot concerned that you indefinitely 
halted the implementation of HUD's Affirmatively Furthering 
Fair Housing rule, which carries out a key mandate under the 
Fair Housing Act.
    I think that given the--have you heard of a podcast called 
Reveal from the Center of Investigative Reporting?
    Secretary Carson. Sounds familiar.
    Mr. Ellison. If you haven't, I would like to send you that 
so you review it, we have a serious housing discrimination 
problem in our country, and I hope you address it.
    Chairman Hensarling. Time of the gentleman has expired. For 
what purpose does the Ranking Member seek recognition?
    Ms. Waters. Mr. Chairman, pursuant to Clause (d)(4) of 
committee rule three, I request that the gentleman from 
Minnesota be recognized to question the witness for an 
additional 5 minutes, upon the conclusion of the time allotted 
under the 5-minute rule.
    Chairman Hensarling. Pursuant to Clause (d)(4) of committee 
rule 3, the gentleman from Minnesota will be allotted an 
additional 5 minutes at the conclusion of his time, two members 
on the republican side will be recognized.
    Gentleman from Minnesota is recognized for an additional 5 
minutes.
    Mr. Ellison. I will yield time to Mrs. Joyce Beatty of 
Ohio, a distinguished member of our committee.
    Mrs. Beatty. Thank you, let me start this out by saying 
there is something we agree on, and thank you for your 
statement that we are in a very dangerous place now and we can 
only be torn apart from the inside.
    I think that is very true and I think this President has 
placed us in a very dangerous place and is tearing us apart. I 
won't repeat the question, because I am thankful to my 
colleague who just asked the same question about the anti-
discrimination clause.
    But let me just ask you this, when we look at your rent 
increase Work Requirements Act of 2008. When my colleague said 
that it was tripling going from $50 to $150, when we look at it 
going from 30 percent of the adjusted income to 35 percent 
gross, you said it didn't affect many people. Can you qualify 
that by defining numbers of what not many people, because 
there's a chart and I recognize you can't see it behind you, 
that has some very alarming numbers to me, but what are your 
numbers when you say not many?
    Secretary Carson. I was talking about the minimum rent, the 
$50 to $150. Yes, that would be less than 10 percent of the 
people.
    Mrs. Beatty. Ten percent of what number, when you say the 
people?
    Secretary Carson. Of people who are supported in housing?
    Mrs. Beatty. How many people is that, Mr. Director?
    Secretary Carson. About 4.7 million households.
    Mrs. Beatty. If we take, you said 10 percent of that?
    Secretary Carson. I said less than 10 percent.
    Mrs. Beatty. Less than 10 percent, so 9 percent or 8 
percent, not going to hold you to it. I think any time it is 
the least of us, so let me ask you this, how do we help them, 
is it through waivers, is this an established program, because 
here's what I do know; twenty years of being a consultant for 
HUD, what I do know is many, if not almost all of the people, 
they want to work, they want to be, to use our terms in 
housing, self sufficient.
    They oftentimes go from a public housing to Section 8, what 
will you and your team do to help them on the job aspect? Is 
there a program that will move them to employment? How much 
time will they get to--so can you talk to the Nation and give 
me the confidence that there will be an allocation period? I 
know people live here and they don't get a job immediately, and 
they are well educated. How does this really work?
    Secretary Carson. We have put a tremendous emphasis now on 
Section 3, which is part of the Fair Housing Act. It has been 
on the books for 50 years and it's hardly been used. It 
requires that if you are receiving HUD money, that you hire the 
low income people in that area, or train them, or give them 
contracts. People have found lots of ways to get out of it.
    We are in the process of closing all those loopholes to 
make sure that they can't--
    Mrs. Beatty. Can you give me one example? Because you are 
right, I am very familiar with it and it's been on the books, 
and as you said, respectfully too, it's not working. Tell me 
what and how you are going to make a difference that nobody 
else has done?
    Secretary Carson. We have put together a taskforce 
specifically on Section 3. We had a big national meeting in 
Texas just the week before last, with people coming from all 
over the country, from various PHAs to learn about the new 
things that have been done in that arena, in order to increase 
that program. In addition to that--
    Mrs. Beatty. I don't want to interrupt you, but it's 
because of the clock; not being disrespectful--Taskforce, 
meetings, that is not--and I can tell you; I know the other HUD 
directors at taskforce, I have been to meetings. They have had 
hearings. That is not tangible.
    A lot of the reason this is very important to me is people 
are calling us and saying, am I going to be evicted? Am I going 
to be homeless? What happens if this doesn't happen? Because we 
also know that if you look at--there's no State in America 
where a person earning the minimum wage can afford a two 
bedroom apartment at market rate.
    In my State, I can tell you, they have to make $17.50. If 
you had two people in there, they would both have to be making 
more than our minimum wage to get there. That is not realistic. 
I guess I need some more tangibles for me. If you don't have 
them you can send them to me.
    Secretary Carson. We need a lot of time to talk about that.
    Mrs. Beatty. OK, so will you make a commitment that you 
will have someone on your team, because now I don't feel 
disrespected that I heard my colleague sent you three letters 
and you didn't even answer him.
    Let me end with this: We have been quoting the Bible. God 
will repay each person according to the work they do. That is 
Romans.
    Chairman Hensarling. Time for the gentleman from Minnesota 
has expired. The Chair now recognizes the gentleman from 
California, Mr. Royce, the Chairman of the House Foreign 
Affairs Committee.
    Mr. Royce. Thank you, very much, Mr. Chairman. I appreciate 
this hearing today. I appreciate Secretary Carson being with 
us. Mr. Secretary, we have seen a large uptick in the number of 
nonbank mortgage originations.
    I was reading a paper about this yesterday. They were half 
of the market in 2016, three quarters of the mortgages issued 
by the FHA or V.A., and the rise in Ginnie Mae nonbank share 
has continued to climb in 2018. If we look at the data from the 
Urban Institute, it puts that number at 79 percent in May. What 
do you think the main causes of this market shift have been? 
Are you concerned by the shift?
    Secretary Carson. I am concerned about it. I think a lot of 
it has to do with false claims acts. Some of the traditional 
deposit banks are concerned about being severely penalized for 
immaterial mistakes. We are addressing that, along with the 
Department of Justice. It's a significant concern.
    Mr. Royce. Another aspect of this that I think we have to 
think on is that high volume, nonbank lenders played a pretty 
substantial role in the financial crisis. In many cases, they 
were the first to fail under liquidity pressures.
    When the well runs dry, if we think back to Countrywide and 
Ameriquest and New Century, those were quick to basically fall 
like a house of cards. While many nonbank originators in the 
market today are using more sophisticated tools, and some hold 
increased capital, the majority continue to be vulnerable to 
liquidity pressures in both their loan origination and 
servicing activities.
    Right now you have a situation where times are good, low 
interest rates, streamlined programs at the FHA, V.A. and so 
forth. Everybody's opened for securitization; Ginnie, Fannie, 
Freddie, lines of credit quite plentiful, but there's no 
guarantee that this is going to last.
    I was hit by the testimony by the President of Ginnie Mae, 
Ted Tozer. He said, we have depended on sheer luck; luck that 
the economy does not fall into recession and increase mortgage 
delinquencies, luck that our independent mortgage bankers 
remain able to access their lines of credit, and luck that 
nothing critical falls through the cracks.
    The worry here is, do these nonbank lenders have the 
resources to withstand a real life stress test? If we have the 
stress test that we had in 2008; if that reoccurs, and we move 
so much into this sector, and so hat is what I was going to ask 
you.
    Secretary Carson. I think stress testing should be done. I 
was talking to some of the people at Ginnie Mae about that just 
recently.
    Mr. Royce. Yes.
    Secretary Carson. It's a concern. I agree with you.
    Mr. Royce. What about on the Government side? In many ways, 
FHA appears poorly prepared to oversee these nonbanks, because 
of their outdated technology and risk management systems.
    Secretary Carson, are you comfortable with the risk 
management and the technology at FHA to do that? Or are you 
looking to improve it?
    Secretary Carson. The technology needs to be drastically 
updated. We have a new fee that we are seeking to do for single 
family, which will help with some of the updating. We recently 
got a grant, also, to help with it. But we still are woefully 
behind. I can't emphasize strongly enough to all appropriations 
members that we have to do this before a disaster occurs. We 
have to.
    Mr. Royce. Thank you, Secretary Carson, I concur. Mr. 
Chairman, I yield back.
    Chairman Hensarling. Would you yield to the Chairman?
    Mr. Royce. Absolutely.
    Chairman Hensarling. I thank the gentleman for yielding. In 
the remaining time, Secretary Carson, I just want to go back 
again and talk about the I.T. system. I know that the gentleman 
from North Carolina had some questions, as did the gentleman 
from California.
    I guess the question is instead of spending hundreds of 
millions of taxpayer dollars to update the FHA's system, 
couldn't we save those dollars and import Fannie's and 
Freddie's risk management and technology platforms, which the 
taxpayers are paying for anyway?
    Secretary Carson. I would not be opposed to that.
    Chairman Hensarling. OK, thank you. Time of the gentleman 
from California has expired.
    The Chair wishes to announce that we expect to excuse the 
witness at one o'clock. Votes on the floor are expected shortly 
thereafter. The Chair now recognizes the gentleman from 
Minnesota, Mr. Emmer.
    Mr. Emmer. Thank you, Mr. Chair, and thank you, Mr. 
Secretary, for being here today. I want to follow the 
Chairman's questions just now, and I think it was maybe 
representatives Lucas and Barr that touched on this I.T. stuff 
before Representative Royce.
    I haven't heard, and if you already said it, I apologize, 
but everybody's raising this as an issue and asking you to 
confirm that the I.T. systems are woefully behind and outdated. 
In some cases, 40 years old. But I don't know that I have heard 
you describe what efforts you are undertaking internally to 
address the problem, and when you talk about the 
appropriations, great, but what is it that you are doing within 
the agency, is there a strategy, is there an approach, could 
you fill us in if there is?
    Secretary Carson. Yes, unfortunately we are spending about 
$250 million patching up the various networks that we have. We 
are in the process of transitioning to a cloud based system, 
and that has been going on for about the last 8 months or so.
    But it really needs a much bigger overhaul than that. Right 
now we are doing patchwork.
    Mr. Emmer. Have you prioritized which systems need to be 
addressed first? Do you have a priority list, or is it just all 
of the above?
    Secretary Carson. I would have to say pretty much across 
the board we don't have anything that is highly modernized.
    Mr. Emmer. All right, well let us move on. I have been 
encouraged to see a renewed focus in reviewing and reevaluating 
Federal regulations under this Administration. In January, HUD 
announced that it would be conducting a, quote, ``wholesale 
review of its manufactured housing rules as part of a,'' quote, 
``broader effort to identify regulations that might be 
ineffective, overly burdensome, or excessively costly given the 
critical need for affordable housing.''
    The public comment period for the review ended at the end 
of February. Can you shed some light, for the committee, on 
your plans to reform HUD's regulation of manufactured housing?
    Secretary Carson. We should be coming up with new rules and 
with a significantly culled down group of regulations before 
the end of this year.
    Mr. Emmer. So, that would be the timeline, by the end of 
2018?
    Secretary Carson. Yes.
    Mr. Emmer. What can you do, if possible, to expedite the 
review and make the necessary changes as soon as possible? You 
heard my colleague from Minnesota inviting you to our great 
State because of the issue of affordable housing and 
manufactured housing would seem to be one of the solutions.
    Secretary Carson. I will continue to push the group to move 
even faster. Hopefully it will be considerably before the end 
of the year.
    Mr. Emmer. All right. As part of the Administration's 
recently released reorganization plan, which I know you were 
also asked a couple of questions about, there have been calls 
to move the USDA loan guarantee and rental assistance programs 
to become part of HUD.
    It appears that the rural community development programs 
would stay at USDA. How would the Administration's reform plan 
proposal to move some of the USDA housing programs to HUD, 
while leaving other housing programs at USDA, benefit our rural 
communities?
    Secretary Carson. First of all, these are very high level 
initial thoughts that are coming out. There hasn't been any 
substantial reorganization of government for almost 100 years 
and the attempt is really to put like things under the same 
roof to try to cut down on some of the duplication.
    In terms of rural housing, HUD already does more than the 
USDA does. That is not a difficult move at all. USDA agrees, 
they say please take it, no problem. That is the rationale 
behind it.
    Mr. Emmer. All right, you believe that it will streamline 
or the people that report to you believe that a streamlined 
process within HUD is going to be beneficial to rural 
communities?
    Secretary Carson. Absolutely.
    Mr. Emmer. All right. Thank you, Mr. Secretary, I yield 
back.
    Chairman Hensarling. The gentleman yields back, the Chair 
now recognizes the gentleman from Colorado, Mr. Perlmutter.
    Mr. Perlmutter. Mr. Secretary, thanks for taking the time 
today to visit with us. I have--let me preface my remarks, 
just--Mr. Ellison started talking about the housing situation 
in the Minneapolis area, where affordable housing is really 
becoming hard to find.
    In Colorado, my district, I represent the suburbs of Denver 
and the Denver metropolitan area, we have enjoyed a good 
economy probably five, 6 years running, to the point where my 
district, I have been under 3 percent unemployment for at least 
5 years now.
    Very strong, but as a consequence, we have seen a lot of 
congestion on our highways, so an infrastructure issue, and 
housing, particularly for the disabled, the elderly, the low to 
moderate income has really become hard to find. My question to 
you is what are you going to do about it?
    Secretary Carson. First of all, I should congratulate you, 
I have been to the Denver Housing Authority, I have seen some 
of the incredible things that are going on there, it is really 
quite impressive, and some of the things that are being done 
for the veterans there also, very, very impressive.
    We will continue to work with the different localities and 
push the concept of public-private partnerships, because that 
is what is been so successful in your area. The more we can 
spread that, the faster we can create the housing that you are 
talking about.
    Mr. Perlmutter. Thank you, so I guess one of the things I 
am concerned about is just what I see, the continued pairing of 
the housing line items for the elderly, the disabled, low to 
moderate income in your budget, in the HUD budget.
    I am looking at 2016, 2017, 2018 and then the proposed 
budget for 2019, and I know earlier an answer to one of the 
questions is, well we really can't afford to do that, to do 
more. Do you really believe that?
    Secretary Carson. I don't think I said we couldn't do more, 
I said we have to be fiscally responsible.
    Mr. Perlmutter. All right so I agree with you 100 percent. 
Now we are going to do a little math, OK, because you are a 
super scholar, and I am--and I will help you, because I have 
already done the math.
    But let's talk about what the GAO says the cost of the 
Federal budget is going to be of the tax cuts that were just 
passed. We are going to take the low end of the loss to 
revenue, and that is $1.5 trillion. $1,500 billion, you don't--
$1.5 trillion is $1,500 billion.
    Secretary Carson. Right.
    Mr. Perlmutter. OK. What is the budget for HUD for last 
year, this year and next year? What was your 2017 budget?
    Secretary Carson. Our 2017 budget without D.R. was about 
42.
    Mr. Perlmutter. Next year, what is the proposed budget?
    Secretary Carson. Going to be in the same general region.
    Mr. Perlmutter. OK. Now, let's drill down a little deeper. 
Do you remember what the line item is for elderly housing? Let 
me help you, it is, at least for 2018, it was about $666 
billion or it had been up at $721 billion, then cut a little 
bit, cut a little bit more. But, for argument's sake, let's say 
$700 million.
    Secretary Carson. Right, but it ended up substantially more 
than that.
    Mr. Perlmutter. Because of the House, we gave a little 
more. But it had been cut, true?
    Secretary Carson. Right.
    Mr. Perlmutter. Do you know what persons with disabilities, 
what that line item is? I will just help you. It is, at least 
in your budget, it was $175 million.
    Do you have any idea for how many years you could have--let 
us say it is $1 billion, between elderly, disabled, and other 
subsidies for housing? Say it is $1 billion, we will make the 
math easy, how many years could you provide those programs for 
people under that tax cut?
    Secretary Carson. I will tell you, you are preaching to the 
choir. I spent a lot of time going up and arguing for the 
elderly and the disabled.
    Mr. Perlmutter. I think that is the real problem here. We 
make a tax cut that goes to big corporations and the wealthiest 
Americans. Some of the most vulnerable people are going to be 
hurt by this; and, it is your job to make sure they are not.
    Secretary Carson. We are working hard on that.
    Mr. Perlmutter. I yield back.
    Chairman Hensarling. Time of the gentleman has expired. The 
Chair wishes to inform members, I expect to clear four more 
members in the queue prior to dismissing the witness. The Chair 
now recognizes the gentleman from Maine, Mr. Poliquin.
    Mr. Poliquin. Thank you very much, Mr. Chairman. Mr. 
Carson, always good to see you and thank you very much for your 
service to our country, I appreciate it.
    About a year ago, this committee passed a sweeping package 
of regulatory forms to our financial services sector called the 
CHOICE Act. We sent it to the Senate, Senate watered it down, 
and they came back with a final product called 2155 that I am 
very supportive of.
    However, we have a little bit of a problem, Mr. Carson, 
that bill did stop the harmful practice of loan churning which 
targeted recipients of V.A. loans. Now the technical changes in 
the Ginnie Mae pooling requirements, which were dealing with 
this anti-churning provision caused some disruptions in the 
market for refinanced V.A. loans.
    My question to you, sir, is will you and your staff commit 
to working toward a solution to this problem? Because these 
V.A. loans met all the requirements that were set forth in the 
Ginnie Mae requirements, is that something you will work with 
us on, sir?
    Secretary Carson. We have already done quite a lot in the 
area of the V.A. loan churning. We will continue to do so. 
Absolutely, I will commit to that.
    Mr. Poliquin. Great, appreciate it very much. I would like 
to turn to another issue, if I may, Mr. Carson. You have a very 
compelling life story. There are three parts of your life story 
that puts you in a very unique position to deal with issues 
that affect many, many Americans. You escaped poverty, you 
lived in public housing, and you are a physician. This is just 
the American dream. There are so many of us that so admire you 
for having done that. You are in a position, because of your 
position, to, professionally and otherwise, to help so many 
Americans.
    For 3 years, I worked very hard to help include work 
requirements for those receiving food assistance in this 
country. Those requirements are embedded in our Farm Bill that 
we passed last week. I happen to believe, and I know you do 
too, Mr. Carson, that the role of government is to help people 
escape poverty, not help them become comfortable in poverty. 
There's nothing like employment to help people lift themselves 
up, the way you did in your own life, sir.
    Secretary Carson. Right.
    Mr. Poliquin. Now, in this Food Stamp Program, where work 
requirements are now attached and now it is on its way to the 
Senate, there were no cuts to the Food Stamp Program. There are 
all kinds of exemptions, if you are pregnant, or if you have 
young kids at home, or elderly parents at home you are taking 
care of, or if you have any disabilities at all.
    We are just saying, if you can get a job at least 20-hours 
a week, or if you can't find a job--which is very, highly 
unreasonable today, we will make sure you get job training so 
you can get a job. If that doesn't work, we will ask you to do 
some community service so you can better your life, and your 
kids and your grandparents can see this.
    Isn't that a good idea? If so, Mr. Carson, what are you 
doing at HUD to promote folks escaping poverty, living better 
lives with more opportunity and more freedom?
    Secretary Carson. Thank you for asking that question. 
Important, that is what real compassion is about. Quite 
frankly, it's actually getting people out of poverty. Not 
saying, ``there, there, you poor little thing, I am going to 
take care of you.'' What we are doing--that is the whole 
concept behind our push on Section 3 because there are 6 
million skilled jobs in our country that are going--begging 
right now.
    That is the whole concept behind the EnVision Centers, 
where we bring resources in juxtaposition with the need. 
Because what I have discovered, in this country, there are a 
lot of good-hearted people who really would love to help, they 
just don't have a mechanism for doing it. That is going to be a 
big part of it.
    Also, creating holistic communities, creating communities 
that are nurturing, not dangerous places, but places that have 
good educational facilities; that have clinics so that people 
will get their primary care in a clinic and not in an emergency 
room that costs five times as much. Just doing something that 
is actually going to be nurturing to a person as they grow.
    Mr. Poliquin. Thank you, Mr. Carson. We have a horrible 
opioid epidemic in our country. It has hit rural Maine very 
hard. I noticed that you folks are now doing a great pilot 
program, using Section 8 vouchers, so folks can go on that 
Continuum of Care. After early education, after treatment, 
post-detox treatment recovery and now they can use Section 8 
vouchers to get into housing where it's safe, away from bad 
actors, and get the counseling they need. Please keep doing 
those things.
    Secretary Carson. Thank you.
    Chairman Hensarling. Time of the gentleman has expired. The 
Chair now recognized the gentleman from California, Mr. 
Sherman.
    Mr. Sherman. Thank you for being here, Mr. Secretary. 
People in my district face very high housing costs in the 
greater Los Angeles area. They long for that time when they can 
actually own a home. The FHA is what they rely on.
    There have been discussions at FHA to lower the total 
amount you can get on a mortgage, what is sometimes called the 
loan limit. Basically make that program unavailable to people 
in the San Fernando Valley.
    Please tell me this isn't going to happen, that you will at 
least keep the loan limit where it is? For high cost areas 
around the country, including the 10 biggest cities.
    Secretary Carson. There's a formula for determining the 
high and the low level of the loan limit. 150 percent versus 
65. But the good news for you is, those loan limits are set by 
Congress and not by HUD.
    Mr. Sherman. Can I count on you to guide Congress to at 
least keeping the loan limits where they are?
    Secretary Carson. I have no problem working with you on 
where the loan limits should be.
    Mr. Sherman. I will take that as a yes and go on. There has 
been a source of confusion for FHA lenders with regard to the 
eligibility of various down payment assistance programs, 
particularly those that involve premium pricing.
    Can we count on HUD to issue more detailed guidance so that 
lenders can understand what programs, what practices are 
permissible and what aren't?
    Secretary Carson. Thank you so much for asking that 
question, because it's very important. Some of the loan down 
payment programs have been a disaster, and have led to a lot of 
defaults.
    Others have not, and being able to decipher which ones are 
which and making those recommendations are very important and 
we would be very happy to do that.
    Mr. Sherman. You will be studying this, determining what 
the rules ought to be, and issuing the clear guidance so that 
people will know what is kosher and what isn't?
    Secretary Carson. Very much so.
    Mr. Sherman. We look forward to those--any idea what the 
timeframe would be as far as issuing additional guidance in 
that area?
    Secretary Carson. I will have to consult with the group 
that is working on that.
    Mr. Sherman. OK, we will make that a question for the 
record and I will ask for an explicit time there. There has 
been this proposal released by the White House to restructure 
the whole Federal Government. Part of that moves the community 
development block grants from your agency to the Department of 
Commerce. I have been here for a long time, I have grown bald 
in the service of my country.
    To paraphrase, President Washington, General Washington at 
the time, and I have seen people move boxes around at great 
expense and delay and confusion and then nothing actually gets 
any better.
    Can you see any particular--what is your view on moving 
CDBG from your department to Commerce, and what would be the 
plan to make things better?
    Secretary Carson. Back when you had hair, this was brought 
up before too, as you probably remember. It is a high level 
proposal, there's obviously going to be a lot of back and 
forth. It is unclear where the dust will settle on that one.
    Mr. Sherman. But, I have heard arguments in favor of CDBG, 
I have heard a few arguments against, I am persuaded it's a 
good program, but is there anything your department is doing 
wrong in running this program that would somehow be corrected 
if we moved it to the Department of Commerce?
    Secretary Carson. I can tell you right now, we are looking 
at CDBG in terms of how it can be reformatted in such a way 
that some of the abuses that have occurred in the past will not 
occur any longer, and that will happen whether it stays at HUD 
or whether it goes to Commerce.
    Mr. Sherman. I would strongly recommend conferring with 
Members of Congress as to how money is spent in their own 
district, Mr. Secretary, I am sorry I wasn't here at the 
beginning of your testimony, I was out visiting immigrant 
children who had been separated from their parents and I yield 
back.
    Chairman Hensarling. Time of the gentleman has expired. The 
Chair now recognizes the gentleman from West Virginia, Mr. 
Mooney.
    Mr. Mooney. Thank you, Mr. Chairman. Mr. Secretary, thank 
you so much for coming to West Virginia and touring the drug 
rehab housing and seeing what we are doing on the ground there, 
really appreciate that. You remember one thing--I am just going 
to remind you of a couple things that were brought up at the 
time.
    One was that, in one of the recovery centers, it was all 
female, a lot of the females in recovery are not wanting to 
live near men, men have been abusing them in many cases and 
they want single-sex housing available to them.
    It has been very effective, and there were some HUD rules 
that were getting in the way of that. If you could please 
continue to address that, I would appreciate it.
    I know the beginning of your testimony you mentioned your 
mandate of protecting people from discrimination, regardless of 
their color, race, national origin, religion, sex, disability, 
or a family status.
    What is not mentioned in the HUD mandate is looking at 
crime data, and I just want to again applaud something that you 
are doing, I read a New York Times article from March 20, 2018 
detailing some of the relief you have provided to some cities.
    They had mentioned Hesperia and Houston and other cities 
that were wrongly targeted under Obama, using crime statistics 
to keep child molesters out of neighborhoods where there are 
little children, and they were being targeted as if that was 
discriminatory. It was outside of HUD's mission, I just want to 
applaud your continued efforts there to bring fairness to the 
cities around this country that are attempting to have housing 
in ways that are appropriate, similar to the HUD regulations.
    Secretary Carson. Absolutely.
    Mr. Mooney. I know there's more people in the queue, so I 
don't want to necessarily take all my time, if you have any 
comments on that, please do.
    Secretary Carson. You said the key word right there, and 
that is fairness. Everything that we look at, we need to take 
everybody's point of view and what works for them.
    What we started doing as a society is picking a group, the 
group de jour, and you know, their rights trump everybody 
else's. That is not how America was designed, and I think we 
have a real duty to make sure that we don't go down that 
pathway.
    Mr. Mooney. Thank you, Mr. Secretary.
    Mr. Hill. Will the gentleman yield?
    Mr. Mooney. I will be happy to yield my time to the 
gentleman from Arkansas, Mr. Hill.
    Mr. Hill. I thank my friend from West Virginia. Mr. 
Secretary, it's great to see you today, thanks for your ability 
to stay with us. Thank you for coming to Arkansas, it was a 
real pleasure to show you the success of the RAD program and 
public housing and both in Little Rock and North Little Rock, 
where over $100 million will be putting in the ground for our 
public housing residents. One building unit I looked at was 
built in 1937, so I am glad we have rushed around to getting it 
completely fixed. Thank you for that.
    Secretary Carson. It was very impressive some of the things 
that were going on there.
    Mr. Hill. I want to talk to you about the EnVision centers, 
this is a good initiative of HUD and you toured our house in 
Little Rock, which I think could be a real model for managing 
envision centers.
    Is it your vision about EnVision that the non-profit sector 
could take the lead in providing those services to our public 
housing residents?
    Secretary Carson. Absolutely, and it is very important that 
they do take the lead in doing it, because we want the 
ownership and the direction to be locally based. We 
intentionally designed the program so that you wouldn't have a 
bunch of bureaucrats in Washington trying to run it, and that 
way it is not altered when Administrations switch.
    Mr. Hill. Also, Mr. Heck was talking to you about housing 
affordability and one of the best things I have noted about 
housing affordability this year is that incomes are up in our 
economy. Some people have derided the President's tax cuts act 
as crumbs or hip hip hooray that the economy is doing better. 
But in my district, the typical FHA loan's about $119,000. If 
you look at the interest cost of that, a $2,000 benefit to a 
family--
    Secretary Carson. It's big.
    Mr. Hill. It's like 3 monthly payments.
    Secretary Carson. Absolutely.
    Mr. Hill. That is like 50 percent of a down payment for an 
FHA loan. More than covers the insurance for that whole family, 
for more than a year on a house of that size. I hate the 
derision about the success of letting families keep more of 
their income, but I think it will help us boost housing 
affordability across this country, and get more families into 
housing.
    Do you share that view?
    Secretary Carson. Absolutely. As the old saying goes, a 
rising tide floats all boats. Anything that we can do that 
increases the economy and increases opportunities for people, 
obviously solves a whole lot of problems.
    Mr. Hill. The other thing, and Mr. Heck talking about 
housing affordability, a worthy topic, another thing I know in 
some districts, Arkansas's very affordable. We encourage all 
the people to come live and work in Arkansas where housing's 
affordable.
    But in certain places I hope you will speak out against 
excessive costs, regulatory costs, development costs that drive 
up the costs per unit of housing, like in Southern California, 
for example.
    Secretary Carson. That is one of the big issues there, is 
the zoning restrictions and the regulatory costs that have 
driven things out of sight. What we are going to be doing with 
AFH is getting people to relax some of those things.
    Mr. Hill. Thank you very much.
    Chairman Hensarling. Time of the gentleman has expired. 
Chair will now recognize the gentleman from Florida, Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman. Secretary Carson, thank 
you for being here today.
    Secretary Carson. Absolutely.
    Mr. Crist. A pleasure to see you.
    I look forward to discussing with you several concerns I 
have with HUD. On June 7th, I wrote you a letter, along with 
the entire Democratic Delegation from Florida, about how your 
proposed rent hikes on the poorest Floridians would evict 1.7 
million Americans, including 1 million children.
    Now, I appreciate that, since then, you have decided to not 
put that plan into effect to triple rents on the most 
vulnerable in my district and throughout the country. However, 
even without tripling rents, the moral compass of the Making 
Affordable Housing Work could use a recalibration; specifically 
the plan to eliminate deductions for medical expenses and 
childcare, will target poor single parents, who spend a 
disproportionate share of their very limited income on the 
basic needs of their children.
    Single parents do the work of two people. We should be 
offering them a hand up, not slapping them on the wrist with a 
steep rent hike. I am still awaiting a response to the letter. 
While I am, I would ask unanimous consent to insert the letter 
into the record, Mr--
    Chairman Hensarling. Without objection.
    Mr. Crist. Thank you. In the interim, Mr. Secretary, maybe 
you can shed some light for me, after the Republican Majority 
put a $1.8 trillion tax bill, 83 percent of which went to the 
top 1 percent in our country, on America's credit card. How do 
you justify taxing the poor single mothers by hiking their 
rent?
    Secretary Carson. First of all, this is an initial start of 
the conversation. A conversation that has to be had with 
Congress and all of these things will obviously have to be 
approved by Congress. We will be able to have that discussion. 
During that discussion, I think what you will discover is that 
in terms of the medical deductions, that primarily affects the 
elderly people who we are protecting, so they are not going to 
see rent increases for 6 years.
    As far as the child care deductions are concerned with the 
new tax cut bill, there is a substantial augmentation of the 
child deduction credit. Those things are addressed in that 
sense, but the thing that is also missed is in those rare cases 
where in fact those are not adequate, we will be using waivers.
    Mr. Crist. Thank you. I would like to switch gears because 
there is a lot I would like to get to here, but I don't have 
that much time. Nearly one third of transgender Americans have 
experienced homelessness in their lives.
    According to the 2015 U.S. transgender survey, over one 
fourth of those experiencing homelessness don't even bother 
going to a shelter because they fear mistreatment, and too 
often they are right. Seventy percent of those who stayed in 
homeless shelters reported mistreatment due to their gender, 
including 13 percent who were turned away or kicked out, simply 
because of who they are.
    I will leave this chapter on the trans homelessness and 
shelter access with you to clear up any misconceptions that you 
might have about the community. I ask unanimous consent again, 
Mr. Chairman, to insert the 2015 U.S. Transgender Survey into 
the record.
    Chairman Hensarling. Without objection.
    Mr. Crist. Thank you, sir, because it is your job, because 
it is all of our jobs in fact, to protect and care for the 
vulnerable. I want you to know specifically--I would like to 
know what you are doing to protect the LGBT homeless population 
as it relates to their shelter?
    Secretary Carson. We feel that all of our citizens should 
be treated fairly, and we need to make sure that we consider 
the feelings of everybody, including people who feel that their 
gender is different than their biology would indicate.
    In the process of doing that, we must also consider the 
rights and feelings of others who may not be comfortable in a 
situation where people who physically are very different from 
them claim to be their same gender. What I have suggested is 
that the shelters utilize ways, working with the people there, 
that everybody can find comfort, and that may be different for 
different places.
    Mr. Crist. Great, thank you very much, Mr. Secretary, I 
yield back.
    Chairman Hensarling. Time of the gentleman has expired, 
with the fact that votes have not yet been called on the floor 
and with consultation with the Secretary's office, I would ask 
unanimous consent that the next three speakers each be 
recognized for 2-1/2 minutes and then we will dismiss the 
witness without objection.
    The gentlelady from Utah is recognized for two and a half 
minutes.
    Mrs. Love. Two and a half minutes.
    Secretary Carson. My bladder thanks you for that. Thank 
you.
    Mrs. Love. Two and a half minutes. Hopefully I will be able 
to get you out to Utah for more than 2-1/2 minutes, we are 
really excited to have you come out to the State of Utah.
    I have--first of all, thank you for being here today, we 
had a couple of teachers that came to Washington recently and 
they saw you from a distance and they just thought the world of 
you and I wanted to tell you that.
    I have always believed that people should be treated like 
assets to be developed and not liabilities to be managed, and I 
think one of the great places that we can do that is here and 
making sure that we are helping some of the potential that we 
have in this country.
    I know that you are not really familiar with one of the 
programs that we have in the State of Utah, and it is the 
LifeStart Village program center. I want to give you a little 
bit of background because I think it's really important. It's 
one of the places I would like for you to visit.
    What they do is they take single mothers, many of whom have 
substance abuse, or abusive relationships. They are brought 
into a group home, almost like an apartment, where it is clean, 
but they learn how to clean. They learn how to cook. They learn 
how to--there is some socializing that goes on. They get 
themselves out of debt.
    Then, they graduate. After they have gone through certain 
stages, they will graduate into a townhome where they have a 
little bit more responsibility and they pay a little bit more. 
Then, they go on to a duplex where they have yard work and they 
learn how to do yardwork and they have a little bit more 
responsibility, to a single-home where they pay the majority of 
it.
    In essence, this program takes them literally from 
homelessness to homeownership. It teaches them some great basic 
skills. They have lost a lot of their HUD funding because of 
the way that they are set up, because of the requirement that 
they have to get clean.
    But what it does is, they actually are able to see--they 
are in a complex and they are able to see the graduating 
process, and pushes them into wanting to succeed, wanting to be 
in that single-family home. I had some questions for you on 
that. I think that those are the types of programs that we 
should be promoting, programs that literally, where we judge 
our success on not how many people we put into programs, but 
how many people we are able to get out of these programs to 
become contributing members of society. I just wanted to tell 
you I would really like you to come out and make sure that you 
are able to see that.
    Secretary Carson. I would like to see that program.
    Mrs. Love. Promote that. Thank you.
    Chairman Hensarling. Time of the gentlelady has expired. 
The Chair recognizes the gentleman from Tennessee, Mr. Kustoff, 
for 2-1/2 minutes.
    Mr. Kustoff. Thank you, Mr. Secretary, for being here. 
Thank you for your service to our Nation. If I could, as it 
relates to Community Development Block Grants, or CDBG, as I 
understand there are two formulas. There's a formula A and a 
formula B to determine the allocation of grants to a community.
    The way I understand formula A, it allocates funds to a 
community based on its metropolitan share of population, of 
poverty and of overcrowding. Formula B, as I understand it, 
allocates funds based on the metropolitan share of growth lag, 
poverty, and pre-1940's housing. My question to you is, and I 
don't know how familiar you may be with those formulas--
    Secretary Carson. I am familiar with them.
    Mr. Kustoff. Is it time to update how those formulas are 
calculated, or target funds toward those community development 
needs? If the answer is yes, do you have an idea about how, in 
fact, to update the calculations or the formulas?
    Secretary Carson. Yes. I have asked our people to evaluate 
every aspect of that program because it is in dire need of 
updating. We need to put the right kinds of controls in it. 
That is being done. It is going to take a while because it is a 
big and complex problem. But, the process has started.
    Mr. Kustoff. I just heard you say that it's going to take a 
while. Would you have a guess as to how long it might take, 
what the horizon may be to update those formulas?
    Secretary Carson. I would hope we would be talking months 
and not years.
    Mr. Kustoff. OK. Thank you very much, Mr. Secretary. Mr. 
Chairman, I yield back the balance of my time.
    Chairman Hensarling. Gentleman yields back. The Chair now 
recognizes the gentlelady from New York, Ms. Tenney. She will 
be the last member recognized before we adjourn. The 
gentlelady's recognized for 2-1/2 minutes.
    Ms. Tenney. Thank you, Mr. Chairman. Thank you so much, Mr. 
Carson. You are--not only are you and your life's work a 
national treasure, you are wildly popular and really just very 
well respected in my region. We would be completely honored to 
have you visit and see some of the unique issues that we have 
in our area. I am going to try to hit three really quickly.
    I am not sure you are aware of it, it is a State issue that 
I am wondering if HUD can help us with. It's an issue known as 
the Special One Time Assistance Program in New York City, where 
our New York City mayor is sending people from New York City up 
to regions, including my district, where these people are 
actually getting public assistance for a year, and getting 
housing subsidies, and using our public assistance.
    Is there something--obviously our communities are much 
poorer and have much, much less resources. It is interesting 
that our socialist mayor from New York City thinks that we need 
to bring these people to our district. We are happy to provide 
humanitarian aid, but we have less resources than New York 
City.
    Is there anything that HUD can do, or you can do, to help 
us navigate through this or prevent this from happening?
    Secretary Carson. I just heard about this yesterday.
    Ms. Tenney. OK. OK.
    Secretary Carson. Absolutely it doesn't sound right and we 
are going to look into it.
    Ms. Tenney. Thank you, I appreciate it. The next big one is 
obviously the Community Development Block Grant. The Disaster 
Relief program, I know you have answered some of the questions 
on that.
    But is there anything we can do in my flood-ravaged 
region--oddly enough landlocked, but with a lot of rivers, and 
streams, and problems with flooding. Is there anything that we 
can do or rely on with HUD on that side, where we can find some 
relief and some efficiencies that will help my region deal with 
the flooding issues on the HUD side?
    Secretary Carson. I hadn't heard a whole lot about flooding 
in your region, but obviously if it is existing, absolutely.
    Ms. Tenney. Thank you. It is, oddly enough, we are a 
landlocked area but we have a lot of flooding. On the last, I 
just wanted to talk a little bit about the Federal Housing 
Administration, the FHA, and some of the competitive advantages 
they have over in the lending space.
    I'm wondering if there's anything we can do to obviously 
provide the relief and the security with an FHA loan that we 
need, but also not crowd out private lenders in the area so 
that they can be part of the equation. Is that something that 
HUD is considering?
    Secretary Carson. We always like the idea of bringing 
private capital into both the primary and the secondary 
markets.
    Ms. Tenney. Thank you so much for your service, we are 
grateful to have--
    Chairman Hensarling. Time of the gentlelady has expired. 
For what purpose does the gentleman from Florida seek 
recognition?
    Mr. Crist. I ask unanimous consent to insert into the 
record a petition that had been compiled by the Ranking Member.
    Chairman Hensarling. Without objection.
    I would like to thank the witness for his testimony today. 
The Chair notes that some Members may have additional questions 
for this panel, which they may wish to submit in writing. 
Without objection, the hearing record will remain open for 5 
legislative days for Members to submit written questions to 
these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    This hearing stands adjourned.
    [Whereupon, at 1:15 p.m., the committee was adjourned.]

                            A P P E N D I X



                             June 27, 2018
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
